<html>
<title> - FISCAL YEAR 2005 NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY BUDGET: VIEWS FROM INDUSTRY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                  FISCAL YEAR 2005 NATIONAL INSTITUTE
                  OF STANDARDS AND TECHNOLOGY BUDGET:
                          VIEWS FROM INDUSTRY

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON ENVIRONMENT, TECHNOLOGY,
                             AND STANDARDS

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 28, 2004

                               __________

                           Serial No. 108-54

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
93-215                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              NICK LAMPSON, Texas
NICK SMITH, Michigan                 JOHN B. LARSON, Connecticut
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
GEORGE R. NETHERCUTT, JR.,           BRAD MILLER, North Carolina
    Washington                       LINCOLN DAVIS, Tennessee
FRANK D. LUCAS, Oklahoma             SHEILA JACKSON LEE, Texas
JUDY BIGGERT, Illinois               ZOE LOFGREN, California
WAYNE T. GILCHREST, Maryland         BRAD SHERMAN, California
W. TODD AKIN, Missouri               BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         DENNIS MOORE, Kansas
MELISSA A. HART, Pennsylvania        ANTHONY D. WEINER, New York
J. RANDY FORBES, Virginia            JIM MATHESON, Utah
PHIL GINGREY, Georgia                DENNIS A. CARDOZA, California
ROB BISHOP, Utah                     VACANCY
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama                   VACANCY
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas
VACANCY
                                 ------                                

         Subcommittee on Environment, Technology, and Standards

                  VERNON J. EHLERS, Michigan, Chairman
NICK SMITH, Michigan                 MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         JIM MATHESON, Utah
MICHAEL C. BURGESS, Texas            ZOE LOFGREN, California
VACANCY                              BART GORDON, Tennessee
SHERWOOD L. BOEHLERT, New York
                ERIC WEBSTER Subcommittee Staff Director
            MIKE QUEAR Democratic Professional Staff Member
            JEAN FRUCI Democratic Professional Staff Member
                 OLWEN HUXLEY Professional Staff Member
                MARTY SPITZER Professional Staff Member
               SUSANNAH FOSTER Professional Staff Member
       AMY CARROLL Professional Staff Member/Chairman's Designee
                ADAM SHAMPAINE Majority Staff Assistant
                MARTY RALSTON Democratic Staff Assistant


                            C O N T E N T S

                             April 28, 2004

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Vernon J. Ehlers, Chairman, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............     9
    Written Statement............................................    10

Statement by Representative Mark Udall, Ranking Minority Member, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    11
    Written Statement............................................    12

Prepared Statement by Representative Michael Honda, Member, 
  Committee on Science, U.S. House of Representatives............    13

Prepared Statement by Representative Lincoln Davis, Member, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    14

                               Witnesses:

Mr. Daryl G. Hatano, Vice President for Public Policy for the 
  Semiconductor Industry Association
    Oral Statement...............................................    15
    Written Statement............................................    16
    Biography....................................................    20

Ms. Deborah L. Grubbe, Corporate Dirrector for Safety and Health, 
  DuPont, Wilmington, Delaware; Member of the NIST Visiting 
  Committee on Advanced Technology
    Oral Statement...............................................    20
    Written Statement............................................    23
    Biography....................................................    25

Dr. Thomas A. Cellucci, President, Chief Operating Officer, Zyvex 
  Corporation, Richardson, Texas
    Oral Statement...............................................    26
    Written Statement............................................    28
    Biography....................................................    30

Mr. James J. Jasinski, Vice President of Federal and State 
  Systems for Cogent Systems, Pasadena, California
    Oral Statement...............................................    31
    Written Statement............................................    32
    Biography....................................................    35

Mr. John Biechman, Vice President for Government Affairs for 
  National Fire Protection Association
    Oral Statement...............................................    36
    Written Statement............................................    38
    Biography....................................................    40

Discussion
  Impact of National Institutes of Standards and Technology 
    (NIST) Funding on Current and Future Developments Within the 
    Science and Technology Industry..............................    40
  Industry Suggestions on NIST Budget Increases..................    41
  Advantage of the Science and Technology Industry Gaining 
    Funding From NIST Versus From Other Federal Agencies.........    44
  Integration of NIST Study Results into Fire and Building Codes.    45
  The Nature and Significance of the Advanced Technology Program 
    (ATP) of the NIST............................................    47
  Will the Establishment of Institutions Similar to NIST in Other 
    Countries Contribute to the Relocation of Industry 
    Activities, Particularly Research and Development, to These 
    Countries?...................................................    50

              Appendix: Additional Material for the Record

FY 2004 Budget Cut Impacts Summary...............................    52

Statement by the American Chemical Society.......................    59

Statement by the American Society for Quality....................    60

Statement by the Computing Research Association and the 
  Association for Computing Machinery............................    61

Statement by the Institute of Electrical and Electronics 
  Engineers, Inc.-United States of America (IEEE-USA)............    62

Statement by the Rohm and Haas Company...........................    63

Letter to the House of Representatives by The Alliance for 
  Science & Technology Research in America (ASTRA)...............    65

 
FISCAL YEAR 2005 NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY BUDGET: 
                          VIEWS FROM INDUSTRY

                              ----------                              


                       WEDNESDAY, APRIL 28, 2004

                  House of Representatives,
      Subcommittee on Environment, Technology, and 
                                         Standards,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Vernon J. 
Ehlers [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

         SUBCOMMITTEE ON ENVIRONMENT, TECHNOLOGY, AND STANDARDS

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                  Fiscal Year 2005 National Institute

                  of Standards and Technology Budget:

                          Views From Industry

                       wednesday, april 28, 2004
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Wednesday, April 28, 2004, the House Science Subcommittee on 
Environment, Technology, and Standards will hold a hearing to examine 
the role of the National Institute of Standards and Technology's (NIST) 
laboratories in serving industry and whether the funding for the NIST 
laboratories is adequate to support the measurement and standards needs 
of the U.S. economy. The hearing will also review how the NIST Fiscal 
Year (FY) 2005 budget request for its laboratory research programs will 
help support industry, homeland security, and its mission in 
measurement technology and standards development.

Witnesses:

Mr. Daryl Hatano is the Vice President for Public Policy for the 
Semiconductor Industry Association.

Dr. Thomas Cellucci is the President and Chief Operating Officer at the 
Zyvex Corporation, a nanotechnology company located in Richardson, 
Texas. Dr. Cellucci has worked for several technology companies.

Ms. Deborah Grubbe is the Corporate Director for Safety and Health at 
DuPont, headquartered in Wilmington, Delaware. Ms. Grubbe is also a 
member of the NIST Visiting Committee on Advanced Technology (VCAT), an 
advisory committee established by National Institute of Standards and 
Technology Act.

Mr. James Jasinski is Vice President of Federal and State Systems for 
Cogent Systems, a biometrics company headquartered in Pasadena, 
California. Cogent Systems has worked with NIST on the development of 
biometrics for the United States Visitor and Immigrant Status Indicator 
Technology (U.S.-VISIT) program.

Mr. John Biechman is Vice President for Government Affairs for National 
Fire Protection Association (NFPA). NFPA works with NIST on standards 
for equipment for firefighters and first responders.

    The Subcommittee plans to explore the following questions:

        1.  What specific services do NIST's laboratories provide to 
        U.S. industries? Are there other sources of these services?

        2.  Is NIST's FY05 budget request keeping pace with its basic 
        mission, as well as its additional responsibilities in such 
        areas as homeland security, voting standards, cyber security, 
        and nanotechnology?

        3.  What are the impacts of the FY04 appropriation on NIST's 
        ability to meet its mission requirements? What will be the 
        long-term implications for NIST and for U.S. technological and 
        economic competitiveness if future funding is not increased?

        4.  What technological opportunities are not being fully 
        exploited because of NIST's current level of funding?

Background

    The law creating the National Institute of Standards and Technology 
(NIST, then named the National Bureau of Standards) was signed March 3, 
1901. NIST has two laboratory campuses, one in Gaithersburg, MD, and 
the other in Boulder, CO, and a joint institute with the University of 
Colorado at Boulder, the Joint Institute for Laboratory Astrophysics 
(JILA). NIST scientists have won two Nobel prizes since 1997.
    The NIST laboratory programs are organized into eight laboratories 
that conduct research in a wide variety of physical and engineering 
sciences. The labs respond to industry needs for measurement methods, 
tools, data, and technology. NIST helps to produce and support 
voluntary standards for industrial applications. NIST researchers 
collaborate with colleagues in industry, academia, and other government 
agencies. The eight NIST laboratories are:

        <bullet>  Building and Fire Research Laboratory

        <bullet>  Chemical Sciences and Technology Laboratory

        <bullet>  Electronics and Electrical Engineering Laboratory

        <bullet>  Information Technology Laboratory

        <bullet>  Manufacturing Engineering Laboratory

        <bullet>  Materials Science and Engineering Laboratory

        <bullet>  Physics Laboratory

        <bullet>  Technology Services Laboratory.

    In addition, NIST houses three major facilities that play a 
critical role in measurement and standards research, as well as 
supporting technology development for future industries. These are the 
Atomic Clock, the Neutron Spallation Source, and the Advanced 
Measurements Laboratory (AML), which is scheduled to open later this 
year. The construction of the AML was funded through the NIST 
Construction account. The total cost of the AML was $235 million.
    NIST is also the home of the Advanced Technology Program (ATP) 
which funds joint R&D projects with industry; the Manufacturing 
Extension Partnership (MEP) program, which provides technical 
assistance to small and medium-sized manufacturers; and the Baldrige 
National Quality Program (BNPQ) which assists companies and other 
organizations with quality management.
    The NIST laboratories are funded out of the Science, Technology, 
and Research Services (STRS) account in the NIST budget and received 
$338 million in FY04. The NIST labs also receive some funds (about $40 
million) from the ATP to work on specific projects. Federal agencies 
provide NIST with roughly an additional $100 million in return for NIST 
technical assistance, spread among a range of projects on a 
reimbursable basis. The NIST labs also receive approximately $60 
million a year from various companies in return for fee-for-service 
work and use of NIST's scientific resources.

Recent Events and Issues

The FY04 Appropriation Cut Funding for NIST's Laboratories.
    The FY04 appropriation for NIST's lab account was $338.6 million, a 
cut of 5.2 percent ($20 million) from the FY03 appropriation. This 
appropriation was also $49 million below the President's request. 
Attached is a detailed account, provided by NIST, of how the impacts of 
the FY04 budget would be absorbed by its laboratories, and the 
resulting cuts to laboratory programs. A few examples are:

        <bullet>  The elimination of the Information Technology 
        Laboratory's (ITL) Computer Security Expert Assistance Team 
        (CSEAT) which would have provided federal agencies with hands-
        on guidance on remediating cyber security vulnerabilities.

        <bullet>  A substantial reduction in the availability of the 
        NIST Center for Neutron Research to internal and external 
        scientists who study the structure and function of advanced 
        materials.

        <bullet>  The elimination of NIST's contribution to the UNICAT 
        X-ray facility at Argonne National Laboratory, which may result 
        in the breakup of the UNICAT consortium.

        <bullet>  Layoffs of up to 100 scientists at NIST.

    The cuts in the FY04 appropriation are even greater than they 
appear. First, $21.5 million is earmarked for congressionally mandated 
projects. Second, NIST did not receive the $9 million it needed to 
cover federally mandated pay increases and inflationary increases in 
the costs of doing research. These increases are calculated each year 
as ``Adjustments to Base'' or ``ATBs'' and usually included in the 
Administration's budget request. Since 1998, the cumulative shortfall 
in appropriated ATBs has amounted to nearly $42 million. These 
shortfalls must be absorbed by NIST programs, including the 
laboratories.

The FY05 President's Budget Request, If Funded, Would Help Restore This 
        Cut.
    The Administration's FY05 budget request includes $422 million for 
the core NIST laboratory functions--an increase of about $84 million, 
or almost 25 percent. This would restore the steep funding cuts that 
NIST's base programs sustained in FY04.
    The proposed request must cover the cost-of-living increase for 
federal employees, the one-time costs associated with purchasing 
equipment for the new Advanced Measurement Laboratory (AML), the loss 
of internal NIST funding from the proposed elimination of the Advanced 
Technology Program (ATP), and the costs of laying off employees who 
worked on ATP. The entire remainder of the proposed increase would be 
needed to restore the cuts made to NIST's base programs in FY04.

Research of Particular Interest to Congress

NIST Supports Standards for Biometrics
    Biometrics is a term used to describe the automated methods of 
recognizing a person based on physiological or behavioral 
characteristics. Among the features measured are: faces, fingerprints, 
hand geometry, handwriting, irises, retinas, veins, and voices. 
Achieving sufficient accuracy and reliability in biometric technology 
has been a challenge, but NIST has been working with industry to 
develop standards to meet these challenges. NIST has more than 10 years 
of experience in biometrics, including work on the rapid and accurate 
transmission of biometric data to facilitate cooperation between local, 
State, and federal law enforcement agencies. NIST is also carrying out 
mandatory work under the USA-PATRIOT Act (P.L. 107-56) to develop and 
certify technology standards to verify the identities of visa 
applicants and other persons seeking to enter the U.S., and is 
currently running tests using face and fingerprint data, with future 
tests planned for iris scanning devices.
    NIST currently has no funding of its own for biometrics, but gets 
about $5 million in other agency funding. The FY05 request for NIST 
includes $1 million to enhance NIST's biometrics work including 
investigations of how to use ``multi-modal'' biometrics (techniques 
that combine two or more measurements simultaneously, e.g., fingerprint 
and iris scan).

NIST Helps Develop Standards for Equipment for First Responders
    For the Department of Homeland Security (DHS), NIST is facilitating 
the development of a suite of national standards that establish minimum 
performance requirements for respirators and other essential equipment 
designed to protect first responders against chemical, biological, 
radiological, nuclear and explosive (CBRNE) hazards. Announced on 
February 26, 2004, the first of these DHS standards--three for 
respiratory equipment and five for protective clothing--incorporate 
expertise and technical contributions from private-sector standards 
organizations and federal agencies. This kind of work helps reduce 
complexity for pubic safety organizations and procurement officials, 
ensuring consistency by linking and cross-referencing corresponding 
performance specifications. These standards incorporate work by the 
National Fire Protection Association (NFPA) and the National Institute 
of Occupational Health and Safety (NIOSH).
    The FY05 request includes $7.5 million to develop improved CBRNE 
measurements and guidance to detect and disable these threats. This 
work will help instrument manufacturers, analysis laboratories, and 
government agencies determine instrument accuracy and sensitivity.

NIST Reviews the Performance of Fire, Smoke, and Other Detection 
        Systems
    NIST is involved in many aspects of technology and testing to 
support the mission of firefighters and other first responders. Much of 
this is done through the Building and Fire Research Laboratory, 
although other NIST labs also contribute. For example, NIST recently 
completed a two-year, comprehensive survey of smoke detector 
performance, the first such review in 25 years. NIST found that 
ionization smoke detectors work more quickly for flaming fires than do 
photoelectric alarms. Photoelectric alarms, on the other hand, often 
provide faster response time to smoldering fires. The tests also showed 
that the typical contents of a home burned hotter and faster than 25 
years ago, giving occupants less time to escape a burning building 
safely. This study was partly sponsored by the NFPA, the U.S. Fire 
Administration, and the Consumer Product Safety Commission. Because of 
budget cuts, however, NIST will have to delay a similar evaluation of 
explosive and flammable vapor detectors, and will have to cut the 
national fire grants programs again.

Nanotechnology Development Needs NIST Expertise and Facilities
    Cutting-edge nanoscale manufacturing, particularly in electronics, 
is rapidly approaching the boundaries of what is measurable and thus 
what can be built. NIST is pushing those boundaries by developing new 
ways to measure increasingly small things. NIST is also working on new 
ways to fabricate materials at the nanoscale with increasing precision 
and consistency. The FY04 appropriation cut funding for the Electronics 
and Electrical Engineering Laboratory, the Materials Science and 
Engineering Laboratory, and delayed work at the Manufacturing 
Engineering Laboratory in this field. All three of these labs have 
critical contributions to make to the development and support of a 
nanotechnology industry.
    The FY05 request, however, includes a $12 million increase for 
nanotechnology work by these three labs, plus a one-time, $25 million 
sum for the purchase of the equipment that will establish the new 
Advanced Measurements Laboratory (AML) as a world-class facility.

NIST Supports Standards for the Chemical Industry
    NIST's Chemical Science and Technology Laboratory (CSTL) is the 
primary reference laboratory for chemical measurements in the U.S. Its 
calibration services and library of standard reference materials are a 
resource to which all chemistry-related measurements can be traced and 
verified. This provides the fundamental basis for scientific certainty, 
consistency, and accuracy in the chemical industry, academia, and 
government research. Reference materials and calibrations provide 
traceability to the International System of Units (SI), which is 
essential to fair trade. CSTL maintains and develops standards for 
chemical processes, maintaining the U.S. standard for temperature, 
humidity, pressure and vacuum, fluid flow, air speed, liquid density 
and volume, all things that govern industrial production technologies. 
CSTL's scientists support existing and develop new reference methods 
and standards for clinical diagnosis and other medical applications, 
ensuring the quality of health care and pharmaceuticals in the U.S.
    As a result of the FY04 appropriation and staff reductions, CSTL 
has had to delay work related to the natural gas and refrigerant 
industries, and severely reduce its programs in computational biology 
and bioinformatics, both areas identified as having strong potential 
for economic growth and the production of new and more precise methods 
of drug development. The FY05 request includes $1.6 million for 
standards for such diagnostics technologies as portable test kits for 
infectious diseases, glucose, and cholesterol monitoring. NIST will 
also conduct tissue engineering-related materials chemistry research 
for implants that do not provoke rejection.

Cyber Security
    NIST runs a variety of cyber security-related projects, but the 
FY04 appropriation cut the Information Technology Laboratory by more 
than $3 million, causing a reduction in these efforts. NIST's Computer 
Security Expert Assistance Team (CSEAT) program, which was supposed to 
provide federal agencies with hands-on expert guidance to remediate 
security vulnerabilities, is being eliminated. The recently enacted 
Federal Information Security Management Act (FISMA) mandated the 
development of checklists and guidelines for the procurement of 
commercial off-the-shelf (COTS) security technologies. This work will 
also be delayed.
    The FY05 request includes a $6 million increase for Computer 
Science and Applied Mathematics for the delayed cyber security 
activities, as well as the development of wireless security and 
cryptographic standards for small, mobile devices such as BlackBerries 
and cellular phones.

Other Federal Agencies Rely on NIST
    NIST does work for other federal agencies, but the money for these 
projects varies from year to year. Funding from federal sources 
increased from $70 million in FY 1998 to about $115 million in FY 2003, 
as agencies came increasingly to rely upon NIST scientists. Funding in 
FY04 decreased slightly to about $110 million.
    The reduction in NIST's base funding may impair its future ability 
to provide expert assistance to federal agencies. This is already the 
case with cyber security (see above). NIST has also had to delay its 
involvement in the development of armor, structural, and projectile 
applications for the Department of Defense by the Materials Science and 
Engineering Lab. NIST is trying to manage the RIF process by allowing 
some of its most senior scientists to take early retirement. Although 
this will reduce the number of involuntary lay-offs, it means these 
individuals will not be there when agencies come to NIST seeking their 
advice.

Other NIST Budget Issues

The Manufacturing Extension Partnership (MEP) Program Has Been Cut
    The MEP program is a network of 400 centers and satellite offices, 
often partnered with universities and community colleges, offering 
technical assistance to small and medium-sized manufacturers. MEP helps 
businesses become more efficient and develop new capabilities, making 
them competitive in the increasingly global economy. The MEP centers 
are funded on a cost-shared basis with NIST providing one-third of the 
funds. States and fees charged to the manufacturers, make up the 
remainder, so every federal dollar leverages approximately two dollars 
from other sources. The FY04 appropriation for MEP cut the program by 
more than 60 percent, from $106 million to $39 million. As a result, 
more than half of the MEP centers and offices may have to close. The 
Administration is seeking additional funds within existing budgets that 
could be used to support MEP centers, and recently announced that the 
Economic Development Agency (EDA) would open its grants to MEP centers. 
Only about $5 million remains this fiscal year, but $45 million is 
expected to be available in FY05, although MEP centers would have to go 
through a competitive application process to secure these funds.
    The FY05 request maintains funding at the reduced level of $39 
million, maintaining the impact of the cut. MEP offices have already 
had to lay off staff and reduce services because of the FY04 cut.

Advanced Technology Program (ATP)
    Congress established ATP in 1988 to restore and enhance the 
competitiveness of the U.S. economy. It is a competitive grant program 
that funds cost-shared technology development projects with companies 
to advance promising technologies to bridge the gap between the 
research laboratory and the marketplace. ATP seeks to develop pre-
competitive, emerging, and high-risk technologies that promise 
significant commercial payoffs and widespread benefits. ATP is designed 
to support technical research, not product development. The FY04 
appropriation funded ATP at $179 million, but the Administration 
request for FY05 eliminates the program entirely.

Voting Technology Standards Have Not Been Funded
    The FY04 appropriation and FY05 request did not include money for 
voting standards, a critical part of the Help America Vote Act (HAVA). 
The development of new voluntary standards was intended to increase the 
reliability of new voting equipment that States are required to buy 
under HAVA. NIST's Information Technology Lab was cut by $3 million in 
FY04, which meant that NIST could not even continue the work it had 
already started in voting standards development in FY03. The Science 
Committee has worked with NIST to shift $350,000 in internal money for 
FY04 to allow some continuity in this project, and provide some 
technical assistance to the newly-created Election Assistance 
Commission. However, $1.8 million is needed if a comprehensive 
standards development process for voting technology is to begin in 
FY05.

World Trade Center Investigation
    NIST is in the process of completing its technical investigation of 
the collapse of the World Trade Center, and the Station Nightclub fire 
in West Warwick, Rhode Island. Under the National Construction Safety 
Team (NCST) Act, NIST is responsible for conducting investigations of 
events causing building failures that result in substantial loss of 
life or pose the potential for substantial loss of life. The NIST 
investigations will establish the likely technical causes of the 
building failure and evaluate the technical aspects of emergency 
response and evacuation procedures in the wake of such failures. The 
goal is to recommend improvements to the way in which buildings are 
designed, constructed, maintained and used. NIST received $4 million in 
the FY04 appropriation, which is expected to be sufficient to complete 
the investigation this year.

Witness Questions

    In their letters of invitation, all the witnesses were asked to 
respond to the following questions:

        1)  Describe how your company or organization has worked with 
        NIST and how NIST's work has assisted your company or 
        organization.

        2)  Are NIST research and services available elsewhere and to 
        what extent would you use these if NIST were unable to provide 
        them? Are there limitations or drawbacks to using these 
        alternatives?

        3)  How have or how will the reductions in NIST's funding 
        affected its ability to support your company or organization? 
        How would the proposed Fiscal Year 2005 increases help?

        4)  If NIST had more resources and staff available on a 
        consistent basis, what kinds of new work would you want NIST to 
        do in the future?
    Chairman Ehlers. I am pleased to call to order the hearing 
entitled ``The Fiscal Year 2005 National Institute of Standards 
and Technology Budget: Views From Industry.''
    We are here today to talk about one of the Nation's least 
known, but most critical, science programs, the National 
Institute of Standards and Technology, known as NIST but 
previously known as the Bureau, back in the good old days, 
which is within the Department of Commerce. NIST ensures that 
the technology and standards we use every day are of high 
quality and are reliable. The work of NIST scientists impacts 
almost every citizen of this country, as experts at NIST have 
studied, measured, or improved services and products including 
cars, mobile phones, roads, furniture, CD players, shoes, 
houses, fire prevention, drinking water, and air quality.
    The vital standards and measurements provided by NIST are 
usually behind-the-scenes support that goes unnoticed by 
everyday consumers. For example, when you make a call on your 
cell phone, it works only because NIST developed and maintains 
the standards and measurements for the chips and circuits 
inside the phone and because NIST helped developed the 
standards that allow different service providers the different 
types of phones to communicate with one another.
    However, NIST is becoming even more important to the future 
of our industries, their competitiveness, and our national 
security. NIST's scientists are on the forefront of 
nanotechnology and cybersecurity research, standards and 
measurements for homeland security devices, and equipment for 
first responders, and are developing standards for new 
electronic voting machines, just to name a few.
    Most unfortunately, at a time when we are relying more and 
more on NIST, Congress cut last year's appropriation for the 
NIST laboratory account by 14 percent, or $49 million below the 
Administration's request and five percent below the funding 
level that NIST received in 2003. This reduction, coupled with 
costs of mandatory pay raises for its employees and regular 
inflation over the past several years, has gone beyond cutting 
the fat and muscle and has really carved into the bone.
    The problem is that NIST consists primarily of its people 
and its scientists. With as many as 100 scientists being forced 
to take early retirement, buyouts, or lay-offs because of the 
funding cuts, we lose valuable experience and expertise that 
can not be replaced. I might add that NIST currently has two 
Nobel Prize-winning scientists and another who has won the 
MacArthur Fellowship, also known as the ``genius grant.'' I bet 
her mother is proud of that one. The point is, we can not 
afford to lose this world-class talent and service to our 
nation.
    The Administration has requested an increase of 25 percent, 
or $84 million, for NIST's budget. This request, if funded, 
will go a long way toward restoring the cuts of fiscal year 
2004, and I support this effort 100 percent.
    Our distinguished panel of witnesses is here today to 
provide specific examples of the role of NIST in their 
respective industries and work. The goal of the hearing is to 
further inform Members of Congress, especially the 
Appropriators and their staffs, about NIST and the critical 
need to fund its fiscal year 2005 budget request, as submitted 
by the President.
    Toward this end, I am pleased to note that a letter 
supporting NIST's budget request was signed by a group of more 
than 100 businesses, organizations, and academics. That 
represents a tremendous effort, and I ask unanimous consent 
that this letter be included in the record. Without objection, 
so ordered. (See Appendix: Additional Material for the Record.)
    Chairman Ehlers. I look forward to hearing the testimony of 
our witnesses today as they discuss the vital services that 
NIST provides to the Nation.
    [The prepared statement of Mr. Ehlers follows:]

            Prepared Statement of Chairman Vernon J. Ehlers

    Good morning. Welcome to today's hearing on the Fiscal Year 2005 
National Institute of Standards and Technology Budget: Views from 
Industry.
    We are here today to talk about one of the Nation's least known but 
most critical science programs, the National Institute of Standards and 
Technology (NIST), which is within the Department of Commerce. NIST 
ensures that the technology and standards we use every day are of high 
quality and are reliable. The work of NIST scientists impacts almost 
every citizen of this country, as experts at NIST have studied, 
measured, or improved services and products including cars, mobile 
phones, roads, furniture, CD players, shoes, houses, fire prevention, 
drinking water, and air quality.
    The vital standards and measurements provided by NIST are usually 
behind-the-scenes support that goes unnoticed by everyday consumers. 
For example, when you make a call on your cell phone, it works only 
because NIST developed and maintains the standards and measurements for 
the chips and circuits inside the phone, and because NIST helped 
develop the standards that allow different carriers' services and 
different types of phones to communicate with one another.
    However, NIST is becoming even more important to the future of our 
industries, their competitiveness, and our national security. NIST 
scientists are on the forefront of nanotechnology and cyber security 
research, standards and measurements for homeland security devices and 
equipment for first responders, and developing voluntary standards for 
new electronic voting machines--just to name a few.
    Most unfortunately, at a time when we are relying more and more on 
NIST, Congress cut last year's appropriation for the NIST laboratory 
account by 14 percent, or $49 million below the Administration's 
request, and five percent below the funding level that NIST received in 
2003. This reduction, coupled with costs of mandatory pay raises for 
its employees and regular inflation over the past several years, has 
gone beyond cutting the fat and muscle and has really carved into the 
bone.
    The problem is that NIST consists primarily of its people and its 
scientists. With as many as 100 scientists being forced to take early 
retirement, buyouts, or lay-offs because of the funding cuts, we lose 
valuable experience and expertise that cannot be replaced. I might add 
that NIST currently has two Nobel prize-winning scientists and another 
who has won a MacArthur Fellowship (also known as the ``genius 
grant'')--I bet her mother is proud of that one. The point is--we 
cannot afford to lose this world-class talent and service to our 
nation.
    The Administration has requested an increase of 25 percent, or $84 
million, for NIST's budget. This request, if funded, will go a long way 
toward restoring the cuts of Fiscal Year 2004, and I support this goal 
100 percent.
    Our distinguished panel of witnesses is here today to provide 
specific examples of the role of NIST in their respective industries 
and work. The goal of the hearing is to further inform Members of 
Congress, especially the Appropriators and their staffs, about NIST and 
the critical need to fund its Fiscal Year 2005 budget request as 
submitted by the President.
    Toward this end, I am pleased to note that a letter supporting 
NIST's budget request was signed by a group of more than 100 
businesses, organizations and academics. That represents a tremendous 
effort, and I ask unanimous consent that this letter be included in the 
record.
    I look forward to hearing the testimony of our witnesses today as 
they discuss the vital services that NIST provides to the Nation.

    Chairman Ehlers. I am pleased now to recognize the late 
Mark Udall, the gentleman from Colorado, Ranking Member of this 
committee. And the Chair now recognizes him for purposes of 
making a statement.
    Mr. Udall. I thank the Chairman, as long as the record 
reflects that late means I am late in a temporal sense, not 
late in my presence here on the planet.
    I do want to take the opportunity to thank the panel and 
welcoming them here for this morning's hearing. Chairman Ehlers 
has already outlined NIST's importance to the Nation's economy 
and industrial base. I would also like to remind everyone that 
NIST's standards and measurement activities are at the cutting 
edge of research. On a modest research budget during the past 
10 years, NIST's researchers have been awarded two Nobel Prizes 
and a MacArthur Foundation grant. I don't know of any federal 
agency that can match this impressive track record.
    I would like to move on to the issue of NIST lab funding. 
This committee is well aware of the importance of NIST to 
commerce and competitiveness. This panel of witnesses 
highlights the support NIST has among industry, but NIST is not 
well known in Congress, nor is its importance to our economy 
well understood. As a result, NIST has been an easy target for 
cuts in tight budget times. Cuts made in the fiscal year 2004 
omnibus appropriations bill were especially devastating.
    The Committee has worked to get outside groups to express 
their support for NIST, and it has been successful. Two recent 
letters not only express support for NIST's programs, but also 
advocate substantive increases for its budget as well. I 
continue to be concerned that the Committee has taken no 
official position on NIST funding. The Committee has not moved 
a comprehensive authorization bill. We have fallen into the 
habit of authorizing NIST activities by subject with little 
follow up on whether NIST has the money to fulfill its new 
obligations.
    In the 107th and 108th Congresses, we have passed nine laws 
that significantly add to NIST's mission. They are the Help 
America Vote Act, the National Construction Safety Team Act, 
the Enterprise Integration Act, the Patriot Act, the Enhanced 
Border Security and Visa Entry Reform Act, the Federal 
Information Security Management Act, the Pipeline Safety 
Improvement Act, the Cybersecurity Research and Development 
Act, and the Nanotechnology Research and Development Act. 
Generally, these bills authorize no additional funds for these 
new activities, or when there is authorization, no funds have 
been appropriated. In fiscal year 2005, four of these bills 
authorize more than $100 million in funding: it was not 
reflected in the fiscal year 2005 budget request.
    The main reason for today's hearing is to raise the 
visibility importance of NIST in Congress. NIST's problems have 
frequently been attributed to the appropriations process, but I 
have to tell you I don't believe this is entirely true. Our 
committee, and I share the responsibility with all of the 
Members of the Committee, has not done all that it could do to 
ensure that NIST has the funds to meet the obligations that 
this committee has set forth. We need to take our 
responsibility as an authorizing committee seriously and move 
authorizing legislation that sets out spending limits and 
priorities for NIST. Unless this committee takes a more active 
legislative role, I fear that NIST is likely to suffer from the 
same processes that resulted in severe budget cuts and 
termination of NIST employees in fiscal year 2004.
    Reading through the testimony of today's witnesses only 
reinforces my belief that NIST is underfunded, so what I hope 
to learn today is what is the appropriate level of funding for 
NIST and what should NIST be doing to support industry but 
can't because of budget limitations.
    So again, let me thank the witnesses for taking the time to 
appear before the Subcommittee today. Your appearance speaks to 
the importance that you and the organizations you represent 
place on NIST. I hope that the Science Committee will follow 
your example. Welcome, and I look forward to your testimony.
    [The prepared statement of Mr. Udall follows:]

            Prepared Statement of Representative Mark Udall

    I want to welcome everyone to this morning's hearing.
    Chairman Ehlers has already outlined NIST's importance to the 
Nation's economy and industrial base. I would also like to remind 
everyone that NIST's standards and measurement activities are at the 
cutting edge of research. On a modest research budget, during the past 
ten years NIST researchers have been awarded two Nobel Prizes and a 
MacArthur Foundation Grant. I don't know of any federal agency that can 
match this impressive track record.
    I'd like to move on to the issue of NIST lab funding. This 
committee is well aware of the importance of NIST to commerce and 
competitiveness. This panel of witnesses highlights the support NIST 
has among industry.
    But NIST is not well-known in Congress, nor is its importance to 
our economy well understood. As a result, NIST has been an easy target 
for cuts in tight budget times. Cuts made in the FY04 Omnibus 
appropriations bill were especially devastating.
    The Committee has worked to get outside groups to express their 
support for NIST, and it has been successful. Two recent letters not 
only express support for NIST programs, but also advocate substantive 
increases for its budget as well.
    I continue to be concerned that the Committee has taken no official 
position on NIST funding. The Committee has not moved a comprehensive 
authorization bill. We have fallen into the habit of authorizing NIST 
activities by subject--with little follow-up on whether NIST has the 
money to fulfill its new obligations. In the 107th and 108th 
Congresses, we have passed nine laws that significantly add to NIST's 
mission.
    They are:

         the Help America Vote Act;

         the National Safety Team Construction Act;

         the Enterprise Integration Act;

         the Patriot Act;

         the Enhanced Border Security and Visa Entry Reform Act;

         the Federal Information Security Management Act;

         the Pipeline Safety Improvement Act;

         the Cyber Security Research and Development Act; and

         the Nanotechnology Research and Development Act.

    Generally, these bills authorize no additional funds for these new 
activities, or when there is authorization, no funds have been 
appropriated. In FY05, four of these bills authorize more than $100 
million in funding that was not reflected in the FY05 budget request.
    The main reason for today's hearing is to raise the visibility and 
importance of NIST in Congress. NIST's problems have frequently been 
attributed to the appropriations process--but I don't believe this is 
entirely true.
    The Science Committee has not done all that it could do to ensure 
that NIST has the funds to meet the obligations that this committee has 
set for it. We need to take our responsibility as an authorizing 
committee seriously and move authorization legislation that sets out 
spending limits and priorities for NIST. Unless this committee takes a 
more active legislative role, NIST is likely to suffer from the same 
process that resulted in severe budget cuts and termination of NIST 
employees in FY04.
    Reading through the testimony of today's witnesses only reinforces 
my belief that NIST is woefully under-funded. So what I hope to learn 
today is--

         What is an appropriate level of funding for NIST?; and

         What should NIST be doing to support industry, but can't 
        because of budget limitations?

    I want to thank our witnesses for taking the time to appear before 
the Subcommittee today. Your appearance here speaks to the importance 
that you and the organizations you represent place on NIST. I hope the 
Science Committee will follow your example.

    Chairman Ehlers. Thank you, Mr. Udall. And I should also 
mention that Mr. Udall has the pleasure of representing 
Boulder, among other places. Boulder is, of course, home to a 
very important part of NIST's laboratory research activities. 
It is also a wonderful place to live.
    If there is no objection, all additional opening statements 
submitted by the Subcommittee Members will be added to the 
record. Without objection, so ordered.
    [The prepared statement of Mr. Honda follows:]

           Prepared Statement of Representative Michael Honda

    I thank Chairman Ehlers and Ranking Member Udall for holding this 
important hearing, and I thank the witnesses for taking the time to 
come here today to express the importance of the National Institute of 
Standards and Technology's (NIST) laboratories to our nation and need 
for adequate funding to support the measurement and standards needs of 
the U.S. economy.
    NIST's laboratories conduct research in a wide range of physical 
and engineering sciences, including building and fire research, 
chemical sciences and technology, electronics and electrical 
engineering, information technology, manufacturing engineering, and 
materials science and engineering. The labs are among the only 
federally supported resources able to respond to pressing industry 
needs for measurement methods, tools, data, and technology.
    NIST is also the home to several extramural programs involving the 
private sector. The Advanced Technology Program (ATP) funds research 
and development projects with industry, and the Manufacturing Extension 
Partnership (MEP) program provides technical assistance necessary to 
keep small and medium-sized manufacturers on the cutting edge.
    Unfortunately, funding levels have been insufficient to support 
NIST's missions. Fiscal Year (FY) 2004 budget cuts of 5.2 percent from 
FY03 mean missed cost savings to industry and reduced industrial 
competitiveness, staff reductions, missed improvements in homeland 
security and public safety, missed benefits to public health, and 
missed developments and improvements in basic science. NIST has had to 
eliminate the Information Technology Laboratory's Computer Security 
Expert Assistance Team, which deals with cyber security, and the 
funding levels were reduced for three NIST laboratories that have 
critical contributions to make to the development and support of a 
nanotechnology industry in the United States. Increased funding for 
NIST could enable the completion of delayed cyber security activities 
as well as the development of wireless security and cryptographic 
standards for mobile devices. Support for nanotechnology work by NIST 
labs could be increased, and equipment purchased that will establish 
the Advanced Measurements Laboratory as a world-class facility.
    Funding cuts and policy changes have also greatly impacted 
extramural programs. The FY04 appropriation for MEP cut the program by 
more than 60 percent, which means that more than half of the MEP 
centers may have to close, and the FY05 budget request maintains 
funding at the reduced level. And the FY05 budget request eliminates 
entirely the Advanced Technology Program, which seeks to help companies 
advance promising technologies by bridging the gap between the research 
laboratory and the marketplace.
    As U.S. manufacturing jobs move overseas, it is more important than 
ever for us to invest in the infrastructure here at home to support 
these activities. NIST, which supports companies in so many different 
ways, is the perfect place to make that investment, and I believe that 
Congress and the President should do all we can to ensure a healthy 
NIST budget now and in the future.

    [The prepared statement of Mr. Davis follows:]

           Prepared Statement of Representative Lincoln Davis

    Good morning, all. Thank you, Mr. Chairman and Ranking Member, for 
the opportunity for us to discuss the National Institute of Technology 
and Standards this morning.
    Industry works with NIST in several ways. Of particular importance 
to my district is the Manufacturing Extension Program. Small 
manufacturers wishing to modernize improve productivity, and increase 
efficiency can seek assistance through NIST's nationwide Manufacturing 
Extension Partnership program.
    In Tennessee, NIST has an MEP Partnership serving firms throughout 
Tennessee through five regional offices. Rural manufacturers depend on 
assistance through these and other programs for support. MEP centers 
are located in every state to offer local manufacturers assistance with 
a variety of technical and business problems.
    We should do all that we can to support the MEP and other programs 
like it. Mr. Chairman and Ranking Member, and distinguished witnesses 
and guests, I thank you for this opportunity today.

    Chairman Ehlers. At this time, I would like to introduce 
our witnesses, but before I do so, I would also like to 
introduce a distinguished member of the audience, Mr. Arden 
Bement, who currently is wearing two hats, one on each head, as 
he guides both NIST and the National Science Foundation, either 
one is a very daunting job, and he is handling both well. We 
are pleased to have you step away from your NSF duties and come 
here for this hearing, Mr. Bement.
    The witnesses--I will go in order here. First is Mr. Daryl 
Hatano. He is the Vice President for Public Policy for the 
Semiconductor Industry Association, which in my lifetime, 
semiconductors have gone from curiosities to a very, very 
important industry. Next, we have Ms. Deborah Grubbe. She is 
the Corporate Director for Safety and Health at DuPont, 
headquartered in Wilmington, Delaware. Ms. Grubbe is also a 
member of the NIST Visiting Committee on Advanced Technology, 
better known by its acronym VCAT, an advisory committee 
established by National Institute of Standards and Technology 
Act. Next, we have Dr. Thomas Cellucci, who is the President 
and Chief Operating Officer at the Zyvex Corporation, a 
nanotechnology company located in Richardson, Texas. Dr. 
Cellucci has worked for several technology companies. Next, we 
are pleased to have Mr. James Jasinski, who is Vice President 
of Federal and State Systems for Cogent Systems, a biometrics 
company headquartered in South Pasadena, California. Cogent 
Systems has worked with NIST on the development of biometrics 
for the United States Visitor and Immigrant Status Indicator 
Technology, also known by its acronym, U.S.-VISIT, program. And 
finally, Mr. John Biechman, who is the Vice President for 
Government Affairs for National Fire Protection Association, 
better known by its acronym, NFPA. NFPA works with NIST on 
standards for equipment for firefighters and first responders, 
and many people are surprised to find out that NIST plays such 
an important role in fire prevention and the study of fires, 
but actually, they owe part of their existence to the problem 
when Baltimore nearly burned down because fire departments 
coming from all over the country to help with the major fire 
couldn't fit their hoses onto the hydrants in Baltimore, 
because we didn't have a standard for fire hydrants in this 
country. And that was a dramatic illustration of the importance 
of standards and of NIST. Perhaps we need another barn-burning 
fire to awaken the public as to the importance of NIST today.
    As our witnesses should know, I believe you have been 
informed, spoken testimony is limited to five minutes each, 
after which the Members of the Committee will have five minutes 
each to pose questions. I would appreciate it if you could 
summarize your statements in five minutes, and I am certain 
during the rest of the session, you will have opportunity to 
amplify your statements, if you wish.
    We will start with Mr. Hatano and hear his testimony first.

  STATEMENT OF MR. DARYL G. HATANO, VICE PRESIDENT FOR PUBLIC 
       POLICY FOR THE SEMICONDUCTOR INDUSTRY ASSOCIATION

    Mr. Hatano. Thank you, Mr. Chairman.
    Good morning. My name is Daryl Hatano, and I am Vice 
President for Public Policy for the Semiconductor Industry 
Association. I would like to begin by thanking the Science 
Committee and this subcommittee for your work to promote 
research in this country. In particular, I would like to thank 
Chairman Boehlert and Representative Eddie Bernice Johnson for 
their leadership in circulating a letter supporting the 
Semiconductor Focus Center Research program, as well as the 
Members of this committee who have agreed to sign this letter 
this Friday as it circulates. Under the focus center program, 
the industry matches Defense Department funds for semiconductor 
research at 30 universities across this country. This program 
complements the NIST work that I will be discussing today.
    As you know, semiconductors are the enabling technology 
behind the Information Age. The industry's ability to 
continually manufacture chips that are better, faster, and 
cheaper is driving productivity and creating jobs throughout 
our economy. Propelling the ever-expanding role of 
semiconductors in our economy is the ever-shrinking transistor. 
The transistor is the basic building block within the 
semiconductor chip. For over three decades, the industry has 
followed Moore's Law, which states that we can double the 
number of transistors on each chip every 18 months. A decade 
ago, we were able to integrate thousands of transistors on each 
chip, and today, we can integrate millions, if not billions, of 
transistors on a single silicon chip.
    Semiconductors are the most complex structures manufactured 
on this planet. If we were to get a semiconductor chip and 
magnify it to be the size of this hearing room, each circuit on 
that chip would be about the size of a period on the written 
statement in front of you. We are integrating millions of these 
transistors in each chip, and we are producing millions of 
chips, resulting in a phenomenal number of transistors that we 
are producing worldwide.
    One way to demonstrate the number of transistors that we 
are producing worldwide is to tell you that in the time that 
this coin is in the air, we just produced 60 billion 
transistors around the world. That is a lot of computing power.
    To continue to pack more transistors on each chip, industry 
experts around the world have published the International 
Technology Roadmap for Semiconductors. This roadmap identifies 
the technical barriers that are confronting us for the next 10 
to 15 years, at which time we will have reached the physical 
limits of our current semiconductor chip making technology. I 
might add that the first meeting of this roadmap process was at 
the Boulder NIST facility. This roadmap also explores emerging 
devices that will replace our current chips when we reach those 
physical limits.
    One important set of technical challenges is in the area of 
metrology. There are dozens of types of measurements required 
to manufacture a semiconductor chip. These measurements are not 
only the obvious one of length, or nanometers, but also include 
measurements such as a material's electrical characteristics, 
the ratio of the height to the width in a trench, the 
nanotrenches that we etch onto semiconductor circuits, and the 
size of defective pores that are hidden within thin layers of 
materials.
    NIST is the leader in chip metrology research, having made 
a number of contributions in recent years. Two examples of 
excellent NIST research relate to the measurement of the 
roughness of the edge of the lines that we etch on 
semiconductor circuits and the distortion of images that are 
created when light passes through Calcium Fluoride. Both of 
these are key issues in our industry, and are described further 
in my written testimony.
    The problem is that NIST's budget has not kept pace with 
today's needs. Three indications of the shortfall are: first, 
NIST's spending on semiconductor research has only increased 15 
percent in the last decade, while the semiconductor industry's 
total investment in R&D has increased 145 percent; second, a 
detailed analysis of our roadmap estimated that over $100 
million was needed to meet the roadmap challenges, while the 
total worldwide research fell well short of what was required; 
three, NIST's lithography equipment can etch patterns with 
feature sizes of only one micron, while the current industry 
standard is about 1/8 of that length, and it continues to 
shrink.
    The SIA supports the Administration proposal for increased 
spending at the NIST laboratories, and specifically $25 million 
to equip the AML and $16 million for advances in manufacturing, 
including $4 million for semiconductor nanometrology. We would 
also encourage that these budget increases should complement 
increased NSF and Defense spending for university research. 
Finally, this committee might consider adding language related 
to NIST similar to the language in last year's House 
Appropriations Report for NSF, which encouraged the NSF to 
increase research aimed at the challenges outlined in the 
semiconductor roadmap.
    Thank you.
    [The prepared statement of Mr. Hatano follows:]

                 Prepared Statement of Daryl G. Hatano

    Good afternoon, my name is Daryl Hatano and I am Vice President for 
Public Policy for the Semiconductor Industry Association. This morning 
I would like to

        <bullet>  describe the U.S. semiconductor industry and the 
        technical challenges it faces; and

        <bullet>  highlight the importance of NIST metrology research 
        to insure that the industry can continue to drive American 
        economic growth.

The Exponential Increase in Transistors Drives Economic Growth

    The semiconductor industry employs 226,000 people across the U.S. 
and contributes $41 billion to U.S. GDP. However the industry's real 
impact is due to its role in creating the enabling technology behind 
computers, telecommunications, consumer electronics, and the Internet. 
The industry's ability to continually manufacture chips that are 
better, faster, and cheaper is driving increased productivity and 
creating more jobs throughout the economy.
    Propelling the ever expanding role of semiconductor's in our 
economy is the ever shrinking transistor. The transistor is the basic 
building block within the semiconductor chip. For over three decades 
the industry has followed Moore's Law, which states that the number of 
transistors on a chip will double every eighteen months. A decade ago, 
we were able to integrate thousands of transistors on each silicon 
chip. Today we can integrate millions of transistors on each chip.
    Cramming millions of transistors on each chip makes semiconductors 
the most complex structures manufactured today. To get an idea of how 
precisely the features on each chip are placed, image drawing a map of 
New York City that is so accurate that you can identify features on 
each street that are only 1.5 inches long--and this map is only the 
size of a postage stamp.
    By integrating millions of transistors on each chip, and by 
producing those chips by the millions, we estimate that today about 30 
billion transistors are produced worldwide every second.

The International Roadmap for Semiconductors sets a Timetable for 
                    Technology Advances

    To continue to pack more transistors on each chip, over 800 hundred 
of chip experts around the world contribute to ``The International 
Technology Roadmap for Semiconductors'' (ITRS). The North American 
participation of the ITRS is under the auspices of the SIA, and NIST 
participates in the ITRS metrology workshops--in fact one of the first 
meetings of what is now the ITRS was held at NIST's Boulder, Colorado 
facility.
    The ITRS identifies the milestones that will need to be reached in 
all aspects of semiconductor manufacturing for technology trends such 
as Moore's law to continue. For example, microprocessor transistor gate 
lengths--a critical dimension that affects the processor's speed--must 
decrease from 37 nanometers in 2004 to 18 nanometers in 2010 and 7 
nanometers in 2018 if microprocessors are to continue to increase in 
speed. (Note: a nanometer is one-billionth of a meter. A human hair is 
100,000 nanometers in width, and a red blood cell is 5,000 nanometers 
in width.) If these and other milestones identified in the ITRS are 
reached, microprocessors would be three times faster.
    The ITRS also finds that we are beginning to reach the fundamental 
limits of the materials used in the planar CMOS process, the process 
that has been the basis for the semiconductor industry for the past 30 
years. By introducing new materials into the basic CMOS structure and 
devising new CMOS structures, further improvements in the CMOS process 
can continue for the next ten to fifteen years, at which time it 
becomes evident that most of the known technological capabilities of 
the CMOS device structure will approach or have reached their limits. 
In order to continue to drive information technology advances, it 
becomes necessary to investigate new devices that may provide a more 
cost-effective alternative to planar CMOS in this timeframe.
    The ITRS lists the technical barriers at each stage of production 
that must be overcome if we are to continue to enjoy the benefits of 
chip technology advances. One important set of challenges is in the 
area of metrology. New metrology tools and techniques are needed to 
accurately perform critical measurements as new materials, processes, 
and device structures are introduced. These measurements are not only 
the obvious measurement of linear dimensions (nanometers) but also 
includes measurements such as a material's electrical characteristics, 
the aspect ratio of nanoscale trenches etched into chips, the thickness 
of oxide layers that are only a few atoms thick, and the size of pores 
inside of thin layers of materials.
    The ITRS metrology chapter lists 112 measurements and controls and 
the required accuracy levels that must be met at specific points in 
time if semiconductor technology is continue to advance at current 
rates from now until 2018. The ITRS also identifies areas where further 
research is needed. For example, for 59 of these 112 measurements there 
are currently no known manufacturing solutions for the levels of 
accuracy that will be required on the factory floor in 2009--a mere 
five years away.

NIST's Ability To Meet The Challenges Has Not Kept Pace With Advance Of 
                    Technology

    NIST is the leader in semiconductor metrology research, and has 
made a number of contributions in recent years. Recently a NIST paper 
on the measurement of the roughness of the edges of the lines etched on 
semiconductor chips, a major topic of concern identified in the ITRS, 
won a best paper award from the International Society for Optical 
Engineering. NIST was also the first to note that light traveling 
through Calcium Fluoride (CaF) lenses at different speeds created 
distorted images, a problem for semiconductor makers as shorter 
wavelengths of light were used to expose patterns on semiconductor 
chips.
    While these contributions are notable and underscore NIST's 
potential, NIST's level of effort has not kept pace with needs brought 
on by technology advances. Three indications of the shortfall are 
provided by comparisons with industry R&D spending, detailed analysis 
of ITRS needs, and an evaluation of NIST tools.
    NIST spending on semiconductor research has only increased 15 
percent since 1995. As an indication of the growing technical challenge 
as circuits continue to shrink, the semiconductor industry's total 
investment in R&D increased 145 percent during that period. See Figure 
1.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Another indication that NIST spending is well below what is 
required comes from a detailed analysis of the ITRS by the 
Semiconductor Research Corporation that estimated that 480 person-years 
should be devoted each year to meet the metrology challenges; at a cost 
of over $100 million dollars. The total worldwide research currently 
aimed at these challenges is only a fraction of this amount. A third 
indication that NIST spending has fallen short of what is required is 
to compare the current lithography equipment at the NIST lab with 
current market requirements. Lithography, the ability to use exposures 
of light through masks to etch microscopic patterns on silicon, is a 
key step in semiconductor manufacturing. NIST's lithography equipment 
can etch patterns with a feature size of one micron, while the current 
industry standard is approaching 0.13 microns (or 130 nanometers), and 
sub-100-nanometers devices are coming soon.

SIA Recommendations to Congress for NIST and Other Research Agencies

    The SIA supports the Administration proposal for increased spending 
at the NIST laboratories, and specifically $25.5 million to equip the 
Advanced Measurement Laboratory, $15.6 million for advances in 
manufacturing (including $4 million for electronics and semiconductor 
nano-metrology). These increases represent a good first step toward 
achieving the funding level at NIST that was envisioned when the NIST 
Office of Microelectronics was established in 1994. SIA would encourage 
NIST to insure that a portion of this increase is devoted to funding 
for university research in metrology.
    The budget increases at NIST aimed at metrology issues should be 
done in concert with increased appropriations for other programs in 
semiconductor research at universities. SIA supports significant 
increases in the NSF budget, and in particular funds focused on 
nanoelectronics research as authorized in the Boehlert-Honda Act.\1\ 
The House Appropriations report for NSF noted the importance of 
semiconductor advances to continued productivity growth in our economy 
and encouraged the NSF to increase research aimed at the challenges 
outlined in the ITRS.\2\ The House Science Committee might consider 
similar language in its report to support increased alignment of NIST 
research and the priorities identified by the ITRS. SIA also urges 
Congress to appropriate $20 million for the Defense Department's 
Government-Industry Cosponsorship of University Research program.\3\ 
This program funds the Semiconductor Focus Center Research Program at 
30 universities across the country.\4\
---------------------------------------------------------------------------
    \1\ 21st Century Nanotechnology Research and Development Act; 
Public Law No: 108-153.
    \2\ ``From within the Engineering Directorate, the Committee is 
concerned that researchers are reaching the physical limits of current 
complementary metal oxide semiconductor (CMOS) process technology and 
that this will have significant implications for continued productivity 
growth in the information economy. The Committee encourages NSF to 
examine the challenges and time lines outlined in the most recent 
International Technology Roadmap for Semiconductors and, where 
feasible, increase research support in this area accordingly.'' House 
Rpt. 107-740--Departments Of Veterans Affairs And Housing And Urban 
Development, And Independent Agencies Appropriations Bill, 2003.
    \3\ The Government-Industry Cosponsorship of University Research 
(GICUR), program element number 0601111D8Z, is funded through the 
Office of the Secretary of Defense.
    \4\ For further information on the Focus Center Research Program, 
see http://fcrp.src.org
---------------------------------------------------------------------------

Increased Spending on Chip Research Benefits the Federal Budget

    While the SIA recognizes that this is a difficult budget year for 
the Congress, it is instructive to view the research costs required to 
meet the ITRS timetables from the perspective of the costs to future 
federal budgets if the timetables are not met. On both the revenue and 
spending side, the government receives a multifold return on its 
investment.
    The CBO budget deficit models assume that even a 0.1 percent/year 
increase in GDP growth results in a $236B smaller federal deficit over 
2005-2014, largely due to increased tax revenues collected. In its 
projection of a $1.8 trillion deficit for FY 2005-2014, the 
Congressional Budget Office assumes the 0.7 percentage point surge in 
productivity that was experienced from 2001 to 2003 does not continue. 
The CBO does recognize, however, that

         ``. . .Computers and other information-related technologies 
        are fundamentally transforming the way the economy works, much 
        as the electric dynamo and the internal combustion engine did 
        in previous eras. If that hypothesis is valid, productivity 
        growth might remain faster than its historic average during a 
        transition period that could last several decades.'' \5\
---------------------------------------------------------------------------
    \5\ Source: ``The Budget and Economic Outlook: Fiscal Years 2005-
2014'' Congressional Budget Office, January 2005.

    Economists have noted the acceleration of semiconductor product 
cycles from three years to two years as a key driver of the surge in 
productivity. Because of the ubiquity of semiconductors in our economy, 
the acceleration or deceleration of semiconductor technology advances 
has a pronounced impact on productivity growth and GDP. The federal 
dollars needed at NIST, NSF, DOE, and DOD to support the basic research 
at universities and national labs related to semiconductors and 
nanoelectronics are small relative to the economic growth and added tax 
revenues that would ultimately accrue to the government.
    It addition to the benefits from economic growth, and added taxes, 
that the government receives from semiconductor technology advances, it 
is also possible to quantify the benefits that government (Federal, 
State, and local) receives as a consumer of semiconductors. The Bureau 
of Economic Analysis at the Department of Commerce has data indicating 
that the government sector of the economy purchased $8.9 billion of 
computers in 2003, but that they would have had to spend $106 billion 
for that same amount of computing power if they had to pay 1994 prices. 
The cumulative benefit from technology improvements and resulting price 
declines from 1994 to 2003 is $363 billion of ``free'' computing.

Summary

    For the past five decades, semiconductors have become ever faster, 
better, and cheaper, and today are a major driver of growth in economic 
productivity. As we approach the physical limits of the chip making 
technology that we have used for the past 30 years, technology advances 
are becoming ever more difficult. Metrology challenges are among the 
most important as they cut across all of the manufacturing stages in 
chip production. Basic research funded by the Federal Government is 
needed if we are to continue to advance our current technology as well 
as find a replacement technology before the aforementioned physical 
limits are reached. Congress must increase the NIST laboratory budget 
if the country is to continue to enjoy the benefits of every increasing 
semiconductor capabilities at ever decreasing costs.

                     Biography for Daryl G. Hatano
    Daryl Hatano is the Vice President of Public Policy for the 
Semiconductor Industry Association. In that capacity, he has 
responsibilities for the Association's international trade, legislative 
and workforce strategy programs.
    SIA's international trade program has included the implementation 
of the U.S.-Japan Semiconductor Agreements of 1986, 1991, and 1996--
which contributed to an increase in foreign share in Japan from 8.5 
percent in 1986 to over 30 percent today; and the 1998 elimination of 
European semiconductor tariffs--which has saved U.S. producers and 
their customers $1.5 billion. SIA's legislative successes include the 
passage of the Semiconductor Chip Protection Act, the National 
Cooperative Research Act, and the American Competitiveness and 
Workforce Improvement Act. SIA's workforce strategy program seeks to 
insure a qualified workforce to support industry growth with activities 
at the K-12, technician, and engineering levels. Mr. Hatano has been 
with SIA since 1983.
    SIA is currently urging China's WTO compliance, increased federal 
support for university R&D, improved intellectual property protection, 
and export control reform. SIA is also an active participant in the 
World Semiconductor Council. SIA's full public policy program can be 
found at sia-online.org.
    Mr. Hatano has an undergraduate degree in political science and 
economics from the University of California at Davis, a Juris Doctorate 
from the U.C. Davis Law School and a Master's in Business 
Administration from U.C.-Berkeley's Haas School of Business 
Administration; and is a member of the California Bar. Mr. Hatano has 
published articles in the area of business and public policy in the 
California Management Review, the American Journal of Business Law, and 
Managerial Planning. Mr. Hatano currently serves on the board of 
directors for the U.S. Information Technology Office in Beijing, the 
Advisory Board to the Maricopa Advanced Technology Education Center (a 
National Science Foundation funded program that is working with 
community colleges across the country to train high tech technicians), 
the Japan Society of Northern California, the Cost Recovery Action 
Group (a coalition to encourage capital investment in the U.S. through 
accelerated tax depreciation). Mr. Hatano is also a member of the 
Foundation Board of Trustees for the University of California at 
Merced, the first new research university built in the U.S. this 
century.

    Chairman Ehlers. Thank you.
    Ms. Grubbe.

  STATEMENT OF MS. DEBORAH L. GRUBBE, CORPORATE DIRECTOR FOR 
SAFETY AND HEALTH, DuPONT, WILMINGTON, DELAWARE; MEMBER OF THE 
         NIST VISITING COMMITTEE ON ADVANCED TECHNOLOGY

    Ms. Grubbe. Good morning, Mr. Chairman, Congressman Udall, 
and Members of the Subcommittee. Thank you for the opportunity 
to testify today on the importance of the work that the 
National Institute of Standards and Technology undertakes to 
support our nation's commerce and our national security. My 
firm, the DuPont Company, appreciates the Subcommittee's 
leadership on helping to assure the competitiveness of our 
country's business community. My name is Deborah Grubbe, and I 
am a chemical engineer, currently the Corporate Director of 
Safety and Health. I have 26 years of experience with DuPont in 
managing engineering technology and manufacturing projects.
    Today, I would like to focus my remarks on how NIST helps 
to ensure the U.S. business competitiveness by focusing on four 
DuPont examples, one each from MEP and ATP and two from the 
NIST labs. I personally believe that our nation--the Nation 
that leads in measurements and in standards reputation will, 
over time, be the leader in international commerce.
    My first example of how NIST is helping DuPont grow is with 
our Surfaces business, the Corian product, and the NIST 
Manufacturing Extension Partnership that this Congress has 
supported.
    DuPont manufactures Corian in sheet form at a 1,000-person 
site in Buffalo, New York. However, that raw sheet is a long 
way from the finished countertop in your kitchen or bathroom. 
The finished countertop is produced for DuPont by a network of 
independent fabricators across the country. The manufacturing 
capability among these fabricators varies greatly. As you can 
imagine, quality and training become very important as one 
tries to grow the business. DuPont is trying to broaden its 
market for the Corian product and is relying on these 
fabricators to deliver new products. How can DuPont improve the 
efficiency and delivery predictability of the finished Corian 
product when these key people in our supply chain work for a 
smaller company that may not have the resources to train their 
employees?
    DuPont approached this problem in two ways. First, we 
invited MEP representatives to present business cases for 
change at several national fabricator conferences. MEP 
personnel developed a consistent scope of work, methodology, 
and project tracking capability for hundreds of the Corian 
fabricators. Currently, MEP has seven active projects with 
fabricators around the country. DuPont has agreed to contact 
300 more to support MEP. In a growing business like Corian, 
this supports job growth and creation in many communities.
    My second example is how NIST laboratories support DuPont 
and other businesses. As you may know, DuPont is a leading 
provider of automotive paints and finishes for many of the 
world's major car and truck manufacturers. Pigment and paint 
technologies change over time, and over recent years, NIST has 
led a highly successful collaboration with DuPont and other 
industry leaders to develop new measurement standards and 
procedures for color and appearance. The NIST standards support 
new industry-wide ASTM standards, which become the standards 
required for manufacture. The one question that we need to ask 
is rhetorical, yet important: ``What would be the effect on 
DuPont earnings in this important market if this standards 
process was being run by another government?''
    The third example focuses on the expertise of the NIST 
physics laboratory. DuPont is a leading provider of membrane 
materials for PEM, that is polymer electrolyte membrane, fuel 
cells. NIST works closely with DuPont and the fuel cell 
industry because of NIST's unique capability to internally 
image operating fuel cells using neutron radiography. The data 
provided by NIST is of such fundamental importance to DuPont 
and to our customers in our ongoing research and development.
    In my fourth example, I would like to talk about the 
Advanced Technology Program, or ATP. ATP is an extremely 
valuable program to industry, and I would like to express a 
strong concern for the proposed elimination of this program in 
fiscal year 2005. A number of times in the past years, the 
Administrative Branch has sought to significantly reduce or 
eliminate ATP funding, and each time, Congress has had the 
wisdom to reinstate this valuable program. Through partnerships 
with the private sector, ATP's early investment is accelerating 
the development of innovative technologies that promise 
significant commercial payoffs and widespread benefits to the 
Nation. In addition to the ATP financial benefit of 50 percent 
funding of early stage, high-risk technology development, ATP 
processes foster rigorous peer reviews that validate the 
technological value.
    Since 1993, there have been over 10 ATP collaborations with 
DuPont in the areas of superconductivity, electronic displays, 
and other areas of electronic technologies. ATP has been very 
helpful where the development costs and risks are very high for 
one company to bear alone. I urge you not to eliminate this 
program.
    NIST currently suffers from the disease of the ``non-funded 
mandate.'' Work to support Homeland Security is more 
ineffective today because the Department of Homeland Security 
has the money yet needs the time to build the scientific 
expertise. DHS is indeed making important contributions to 
homeland security, but it has insufficient funding to support 
the full range of its needs and other homeland security areas. 
However, NIST has the expertise, yet has no funding to do the 
work that it could do to support DHS. DHS and NIST need to work 
more closely together, and the appropriators need to make sure 
that the funds are allocated to the agency that can effectively 
accomplish the work.
    I understand that the last NIST comprehensive authorization 
was in the late 1990's. Our world changed on September 11, 
2001, and I suggest the Subcommittee lead an effort to 
reexamine that authorization in light of the support that NIST 
can bring to making our homeland more secure and to strengthen 
our nation's commerce.
    Additionally, DuPont has identified profitable business 
growth areas that require measurements and standards 
capabilities and infrastructure support in the areas of: one, 
materials science, bio-based materials; two, robotics; three, 
characterization of multi-component films; and four, 
standardizing protocols for thermoelectric measurements.
    NIST has the technical expertise and has some programs in 
this area, but funding constraints limit NIST's ability to meet 
industry's level of demand. These are areas where NIST can, 
with the right support, hasten the technical development now 
underway within various companies.
    NIST is a strategic weapon in the DuPont innovation engine 
of the future. We need NIST to position our country 
competitively for the 21st century. No where else in the world 
can we find the specific measurement and special infrastructure 
needed to measure what we need to measure.
    The NIST role is obviously broader than DuPont. It is 
essential that we, as leaders in the U.S. scientific and 
technical community, recognize NIST as a key leader in our 
nation's innovation engine. Mr. Chairman, Congressman Udall, 
Members of the Subcommittee, leading edge research fosters 
innovation, and innovation creates jobs.
    Thank you.
    [The prepared statement of Ms. Grubbe follows:]

                Prepared Statement of Deborah L. Grubbe

    Good morning, Mr. Chairman, and Members of the Subcommittee. Thank 
you for the opportunity to testify today on the importance of the work 
that the National Institute of Standards and Technology undertakes to 
support our nation's commerce and our national security. My firm, the 
DuPont Company, appreciates the Science Committee's leadership on 
helping to assure the competitiveness of our country's business 
community. My name is Deborah Grubbe, and I am currently the Corporate 
Director of Safety and Health for DuPont. I am a chemical engineer by 
training and have 26 years of experience with DuPont in managing 
engineering technology and manufacturing projects. I currently sit as a 
member of the NIST Visiting Committee on Advanced Technology, or VCAT. 
The VCAT gives guidance to NIST on strategies and direction.
    NIST is the only U.S. Government agency chartered to help U.S. 
business. Today I would like to focus my remarks on how NIST helps to 
ensure U.S. business competitiveness by using five (5) DuPont examples. 
I personally believe that the Nation that leads in measurements and in 
standards reputation will, over time, be the leader in international 
commerce.
    DuPont has been in business for 202 years, and safety and technical 
innovation have been, and remain, essential to our growth. We started 
as a manufacturer of black powder for the U.S. Government in 1802, 
operations that by their very nature require a focus on safety and 
technology. During the middle part of the 20th century, we built on 
that history of good safety and innovative technology to support the 
United States and its allies during World War II. Our discovery of 
nylon made safer parachutes for D-Day, and our development of 
Neoprene, a synthetic rubber, was used in allied war machines. In 
today's war on terrorism, our Kevlar fiber is found in bulletproof 
vests, and our Sentry-glas technology is protecting the occupants of 
the Pentagon and civilians around the world.
    DuPont is a $25 billion global corporation that is working hard to 
remain competitive. Fifty percent of our sales are in the United 
States.
    I would now like to cover the five examples. My first example is 
from the Manufacturing Extension Partnership, or MEP. My fifth example 
is about the Advanced Technology Program, or ATP. Examples two, three 
and four are from the NIST laboratories, which are often overlooked, 
yet are essential to NIST and its value proposition.
    My first example of how NIST is helping DuPont grow is with our 
Surfaces business, Corian, and the NIST Manufacturing Extension 
Partnership (MEP) that this Congress has supported.
    DuPont manufactures Corian in sheet form at a 1000 person site in 
Buffalo, New York. However, that ``raw'' sheet is a long way from the 
finished counter top in your kitchen or bathroom. The finished counter 
top is produced for DuPont by a network of independent fabricators 
around the country. The manufacturing capability among these 
fabricators varies greatly. As you can imagine, quality and training 
become very important as one tries to grow the business. DuPont is 
trying to broaden its market for the Corian product and is relying on 
these fabricators to deliver our new products. How can DuPont improve 
the efficiency and delivery predictability of the finished Corian 
product when these key people work for a smaller company that may not 
have the resources to train their employees?
    DuPont approached this problem in two ways: First, DuPont invited 
MEP representatives to present business cases for change at several 
national fabricator conferences. MEP personnel developed a consistent 
scope of work, methodology and project tracking capability for hundreds 
of the Corian fabricators. Currently MEP has seven active projects 
with fabricators around the country. DuPont has agreed to contact 300 
more to support MEP. In a growing business like Corian this supports 
job growth and creation in many communities.
    My second example is of how NIST laboratories support DuPont and 
other businesses. As you may know, DuPont is a leading provider of 
automotive paints and finishes for many of the world's major car and 
truck manufacturers. Pigment and paint technologies change over time, 
and over recent years NIST has led a highly successful collaboration 
with DuPont and other industry leaders to develop new measurement 
standards and procedures for color and appearance. The NIST standards 
support new industry-wide ASTM standards, which become the standards 
required for manufacture. The one question to ask is rhetorical, yet 
important, ``What would be the effect on DuPont earnings in this 
important market if this standards process was being run by another 
government?''
    The third example refers back to my earlier mention of Kevlar, the 
fiber used in bulletproof vests, and a collaboration with the NIST 
Building and Fire Research laboratory (BFRL). The National Institute of 
Justice has identified BFRL's Polymeric Materials Group as the prime 
research laboratory for studying the degradation of ballistic fibers. 
This degradation is important in the ability of the vest to protect its 
wearer. DuPont Kevlar is a ballistic fiber, and research 
collaborations between the NIST and DuPont scientists are in progress 
at our Richmond, Virginia, plant site.
    The fourth example focuses on the expertise of the NIST Physics 
Laboratory. DuPont is a leading provider of membrane materials for PEM 
(polymer electrolyte membrane) fuel cells. NIST works closely with 
DuPont and the fuel-cell industry because of NIST's unique capability 
to internally image operating fuel cells using neutron radiography. The 
data provided by NIST is of fundamental importance to DuPont and to our 
customers in our ongoing research and development to make fuel cells 
more reliable and more efficient.
    For my fifth example, I would like to talk about the Advanced 
Technology Program. ATP is an extremely valuable program to industry, 
and I would like to express a strong concern for the proposed 
elimination of this program in FY 2005. A number of times in the past 
years, the Administrative Branch has sought to significantly reduce or 
eliminate ATP funding, and each time Congress has had the wisdom to 
reinstate this valuable program. ATP is a unique program in the 
Government R&D portfolio. Through partnerships with the private sector, 
ATP's early investment is accelerating the development of innovative 
technologies that promise significant commercial payoffs and widespread 
benefits to the Nation. ATP focuses on industry and industry sets the 
priorities. In addition to the ATP financial benefit of 50 percent 
funding of early stage, high-risk technology development, the ATP 
process fosters partnerships among industry and with academic 
institutions. Additionally the rigorous peer review adds significant 
validation of the technology value. Accelerating development of 
advanced technologies is a key way to maintain U.S. competitiveness and 
U.S. jobs.
    ATP is an important part of the DuPont technology partnership with 
the Federal Government, and since 1993 there have been over 10 
collaborations in the areas of superconductivity, electronic displays, 
and other areas of electronic technologies. ATP has been very helpful 
where the development costs and risks are very high for one company to 
bear alone. I urge you not to eliminate this program.
    These are five of many examples of value that NIST brings to 
DuPont. The world-class NIST special facilities and technical 
capability is not available elsewhere. Even our university research 
partners rely on NIST measurements and facilities. There are other 
governments attempting to emulate the NIST model, and we need to be 
certain to assure that the United States of America remains the leader 
in scientific measurements and standards. This leadership comes with a 
price, and that price is our commitment and increased funding.
    NIST currently suffers from the disease of the ``non-funded 
mandate.'' Work to support Homeland Security is more ineffective today 
because the Department of Homeland Security (DHS) has the money, yet 
needs the time to build the scientific expertise. DHS is indeed making 
important contributions to homeland security, but it has insufficient 
funding to support the full range of DHS needs and other homeland 
security areas. However, NIST has the expertise, yet has no funding to 
do the work that it could do to support DHS. DHS and NIST need to work 
more closely together, and the appropriators need to be sure the funds 
are allocated to the agency that can effectively accomplish the work.
    I understand that the last NIST comprehensive authorization was in 
the late 1990's. Our world changed in September, 2001, and I suggest 
the Subcommittee lead an effort to reexamine that authorization in 
light of the support that NIST can bring to making our homeland more 
secure and to strengthen our nation's commerce.
    Additionally, DuPont has identified profitable, business growth 
areas that require measurements and standards capabilities and 
infrastructure support:

        1)  Materials science--bio-based materials (e.g., clothes from 
        corn)

        2)  Robotics

        3)  Characterization of multi-component films (packaging)

        4)  Standardizing protocols for thermoelectric measurements.

    NIST has the technical expertise and has some programs in these 
areas, but funding constraints limit NIST's ability to meet industry's 
level of demand. These are areas where NIST can, with the right 
support, hasten the technical development now underway within various 
companies.
    NIST is a strategic weapon in the DuPont innovation engine of the 
future. We need NIST to position our company competitively in the 21st 
century. No where else in the world can we find the special 
infrastructure needed to measure what we need to measure.
    The NIST role is obviously broader than DuPont. It is essential 
that we, as leaders in the U.S. scientific and technical community, 
recognize NIST as a key to our nation's innovation engine. Mr. 
Chairman, Members of the Subcommittee, leading edge research fosters 
innovation, and innovation creates jobs. History has shown that the 
jobs are usually created close to the point of innovation, reference 
Silicon Valley and other High Tech Corridors around our nation. NIST 
has been and remains essential to DuPont and to other businesses, both 
large and small. Thank you for this opportunity to address you today, 
and thank you for your support of NIST. We are all working to ensure 
that the generations that follow us will enjoy the high standard of 
living that is a benefit of an innovative society.


                    Biography for Deborah L. Grubbe

    Deborah Grubbe is Corporate Director--Safety and Health for DuPont. 
She is accountable for leading new initiatives in global safety and 
health for the corporation. Deb was formerly the Operations and 
Engineering Director for DuPont Nonwovens, where she was accountable 
for manufacturing, engineering, safety, environmental and information 
systems for a $1 billion business with eight manufacturing facilities 
around the world. Deborah is also a past director of DuPont 
Engineering's 700-person engineering technology organization. Her 15 
different assignments in 26 years range from capital project 
implementation through manufacturing management and human resources.
    Deborah currently sits on the National Institute of Standards and 
Technology Visiting Committee for Advanced Technology. She has recently 
served as a consultant to the Columbia Shuttle Accident Investigation 
Board, and has been appointed to the new NASA Aerospace Safety Advisory 
Panel. She has worked with the National Academy of Sciences as a member 
of the oversight committee for the Demilitarization of U.S. Chemical 
Weapons Stockpile. Deborah is on the Board of Directors of the 
Engineering and Construction Committee of the American Institute of 
Chemical Engineers, and is on the Business Management Advisory 
Committee of Wilmington College. Deborah currently serves as a member 
of the Purdue University School of Chemical Engineering New Directions 
Executive Committee. She was the first woman and youngest elected 
member on the State of Delaware Registration Board for Professional 
Engineers (1985-1989). During her tenure on the State Board, she was 
the Chair of the Law Enforcement and Ethics Committee. She is active 
with the Society of Women Engineers, and is a former board member of 
the Women in Engineering Program Advocates Network (WEPAN). Deborah has 
been featured in the books ``Engineering Your Way to Success'' and 
``Journeys of Women in Science and Engineering--No Universal 
Constants.''
    She has been active in the Delaware community; as former president 
and board member of the Chesapeake Bay Girl Scout Council, and 
currently sits on their Northern President's Advisory Council. Deborah 
is also a board member of the Delaware Zoological Society. Deborah is a 
past board member of the YWCA of New Castle County and the Delaware 
State Board of Pharmacy. In 1994, Deborah was named an outstanding 
Chemical Engineering Alumna by the Purdue University School of Chemical 
Engineering, and is a recipient of the 1986 Trailblazer Award from the 
Delaware Alliance of Professional Women. In 2002, she received the 
Purdue Distinguished Engineering Alumni Award, and was named Engineer 
of the Year in Delaware.
    Deborah was born in suburban Chicago and graduated with a Bachelor 
of Science in Chemical Engineering with Highest Distinction from Purdue 
University. She received a Winston Churchill Fellowship to attend 
Cambridge University in England, where she received a Certificate of 
Post-Graduate Study in Chemical Engineering. She is a registered 
professional engineer in Delaware, and is the engineer of record for 
DuPont. She is married to James B. Porter, Jr., and resides in Chadds 
Ford, Pennsylvania.

    Chairman Ehlers. Thank you.
    Dr. Cellucci.

STATEMENT OF DR. THOMAS A. CELLUCCI, PRESIDENT, CHIEF OPERATING 
         OFFICER, ZYVEX CORPORATION, RICHARDSON, TEXAS

    Dr. Cellucci. Mr. Chairman, I would like to thank you and 
the Members of this distinguished Committee for inviting me 
here today. I applaud you and all of the Members of the Science 
Committee who have taken the time to confront the challenges 
that will ensure our nation's future. We wouldn't be gathered 
here today if not for your efforts.
    I am Tom Cellucci, President of Zyvex Corporation. Thank 
you for giving me the honor of sharing my views on the impact 
of NIST on our nation.
    As President of one of the world's leading nanotechnology 
companies, I have the rare opportunity and privilege to play a 
role in shaping this emerging field. I have had the honor and 
distinct privilege of meeting with several respected Members of 
Congress about how NIST has enabled this new nanotechnology 
revolution. I am especially grateful for the vision of 
President Bush, Senator George Allen, Senator Ron Wyden, and 
Representatives Boehlert, Ehlers, and Gordon in passing the 
21st Century Nanotechnology Research and Development bill into 
law this past December 2003.
    As Members of the Science Committee know, we have made 
great strides by passing this bill. However, much work still 
needs to be done to ensure that it will be the United States 
who continues as the world leader in science, technology, and 
business.
    It is no surprise that America leads the world in 
technological innovation. Much of our leadership position and 
the jobs generated for Americans can be directly attributable 
to NIST. NIST fulfills a vital role in bringing the promise of 
nanotechnology to the American people. NIST is responsible for 
developing the measurements, standards, and data critical to 
private industry's development of products for potential market 
that is estimated to exceed a trillion dollars in the next 
decade.
    Through NIST's measurements and standards laboratories, 
they are helping the private sector to create more high-
quality, high-paying jobs. Their commitment allows us to live 
in the best country in the world.
    NIST works with organizations in the private sector to 
develop consensus standards, which are needed by United States' 
industry for delivering and improving products and services 
sold throughout the world. NIST's weights and measurements 
services are the basis for ensuring the efficiency and fairness 
of more than $5 trillion in sales, roughly half of the United 
States economy. Industry standards are critical in emerging 
fields, such as nanotechnology. Right now, one of the key 
issues facing the nanotechnology arena is the need for 
standards for nanoscale materials and tools.
    As someone who possesses approximately 20 years experience 
as a senior director and executive of high technology firms, I 
can relay many instances where the assistance of NIST 
laboratories was invoked. To put it simply, there is no test 
and measurement body on earth that has the credibility, 
experience, technical depth, and the thoroughness of the NIST 
laboratories.
    Many of the divisions I was responsible for relied on NIST 
traceable standards and information on emerging trends for 
tighter tolerances and higher resolution requirements for 
industry. If you mentioned to your potential customers that 
NIST was either consulted, used, or the originator of certain 
data you presented, you could rest assured that it was never 
questioned and provided your firm with instant credibility of 
one's products, services, and/or processes.
    I am often invited to give keynote speeches and advice to 
universities, such as MIT and Harvard, and trade organizations, 
such as the NanoBusiness Alliance and SEMATECH. Many times, I 
find myself directing them towards the NIST labs to retrieve 
materials and information in order to assist them in 
identifying technical trends and needs.
    As I previously mentioned, there is no entity, that I know 
of, that has the technical depth, practical industrial 
experience, and vision in helping United States industry look 
at new trends in test and measurement.
    I was never a big supporter of government spending on R&D 
funding for any industry. I subscribed to the philosophy, and 
still do today, that private industry's role is to bring about 
innovation based on market drivers. Yet September 11 had a 
powerful effect on the way I think about the urgency of 
innovation. It is all too apparent to me that leading 
technology holds the key to our fight on terrorism at home and 
abroad. As you are acutely aware, American lives are at stake, 
and we need to do everything humanly possible to protect the 
lives of our American soldiers, first responders, and citizens.
    There are over 2,700 law enforcement officers who have been 
spared either death or disabling injury as a result of NIST-
developed standards for bullet-resistant vests. Zyvex's NIST-
ATP has allowed us to develop instrumentation that DARPA has 
identify as being critical to our armed forces and 
laboratories. I am very proud of this and all of the Zyvex 
employees who are so diligently working on this project.
    While some mistakenly characterize the NIST-ATP as 
``corporate welfare,'' I am here to tell you that Zyvex is a 
real-world example of a small business that is leveraging this 
program to commercialize nanotechnology today. We are today 
creating new markets and new jobs. As anyone who knows me will 
attest, I am known for profitably growing companies, not 
wasting money. NIST is our business partner, not simply an 
organization that gives us money. We jointly share the cost and 
the responsibility of bringing this new technology to the 
marketplace.
    Thanks to our ATP, we have hired 15 new employees in 2003 
and plan to hire at least another 25 new employees in 2004. We 
support researchers at universities in Texas, Colorado, 
Michigan, Massachusetts, California, Virginia, and New York. I 
have grown increasingly wary as I travel all over the world and 
see how aggressive countries such as China, Taiwan, Japan, and 
the European community are funding initiatives very similar to 
our NIST. I ask myself: ``What type of legacy will we be 
leaving to our future scientists and engineers if we decrease 
NIST's budget?'' I also ask: ``What kind of economic 
opportunities will our children have if the United States loses 
its industrial competitiveness to other countries?''
    Many people will argue that with the war, these cuts are 
necessary. I ask: ``How can we continue to fight a war on 
terrorism without developing the critical technology that is 
needed in the next decade?'' We are not only at war with 
terrorism, we are in the midst of a significant worldwide 
battle for technical prowess to sustain and increase our 
technological leadership in the world, the greatest economic 
battle of our lifetime.
    Anything but increasing this funding is surrendering our 
economic prosperity and giving up on our promise to our 
children, a promise to higher life. Mr. Chairman and Members of 
this committee, I want to personally thank you for your time 
and for this honor.
    [The prepared statement of Dr. Cellucci follows:]

                Prepared Statement of Thomas A. Cellucci

    Mr. Chairman, I would like to thank you and Members of this 
distinguished Committee for inviting me here today. I applaud you, 
Chairman Boehlert, Representative Ehlers, Representative Udall, and all 
the members of the Science Committee who have taken the time to 
confront the challenges that will ensure our nation's future. We 
wouldn't be gathered here today, if not for your efforts.
    I'm Tom Cellucci, President of Zyvex Corporation. Thank you for 
giving me the honor of sharing my views on the impact of NIST on our 
nation.
    As President of one of the world's leading nanotechnology 
companies, I have the rare opportunity and privilege to play a role in 
shaping this emerging field.
    Zyvex's vision is to become the leading worldwide supplier of 
tools, products, and services that enable adaptable, affordable, and 
atomically precise manufacturing. Jim Von Ehr founded Zyvex in 1997 and 
we now employ over 50 people. We introduced 10 new products in 2003, 
and are on target to introduce an estimated 12 additional products and 
double our revenues in 2004.
    I've had the honor and distinct privilege of meeting with several 
respected members of Congress about how NIST has enabled this new 
nanotechnology revolution. I'm especially grateful for the vision of 
President Bush, Senator George Allen, Senator Ron Wyden and 
Representatives Boehlert, Ehlers and Gordon in passing the 21st Century 
Nanotechnology Research & Development Bill into law this past December 
2003. Jim Von Ehr was present when he signed it.
    As Members of the Science Committee know, we've made great strides 
by passing this bill. However, much work still needs to be done to 
ensure that it will be the United States who continues as the world 
leader in science, technology, and business.

NIST

    It's no surprise that America leads the world in technological 
innovation. Much of our leadership position and the jobs generated for 
Americans can be directly attributable to NIST. NIST fulfills a vital 
role in bringing the promise of nanotechnology to the American people. 
NIST is responsible for developing the measurements, standards, and 
data critical to private industry's development of products for a 
potential market that is estimated to exceed a trillion dollars in the 
next decade.
    NIST brings about this innovation because NIST is committed to 
maximizing innovative technologies to our national economy through its 
labs, its Advanced Technology Program, and by working with the private 
sector to spur innovation and entrepreneurship.
    Through NIST's measurements and standards laboratories, they are 
helping the private sector to create more high-quality, high-paying 
jobs.
    Their commitment allows us to live in the best country in the 
world.

NIST and Industry Standards

    NIST works with organizations in the private sector to develop 
consensus standards, which are needed by United States' industry for 
delivering, and improving products and services sold throughout the 
world.
    NIST's weights and measurements services are the basis for ensuring 
the efficiency and fairness of more than five trillion dollars in 
sales--roughly half of the U.S. economy. Industry standards are 
critical in emerging fields such as nanotechnology. Right now, one of 
the key issues facing the nanotechnology arena is the need for 
standards for nanoscale materials and tools. The NIST labs provide the 
accuracy, reliability and international recognition for the 
measurements and measurement-related operations that make up 
approximately three percent of the U.S. gross domestic product. In a 
marketplace that is increasingly global in nature, we know that 80 
percent of all global merchandise trade is being influenced by testing 
and other measurement-related requirements of regulations and 
standards. More and more, U.S. companies cannot deal in this 
marketplace without NIST. For example, if NIST had not been involved, 
U.S. manufacturers of in vitro devices (IVD) wouldn't been able to meet 
new European Union regulations We now have more than 60 percent of a $7 
billion market.
    NIST's commitment to developing the best standards through its 
scientists and engineers, in tandem with industry leaders, is paramount 
for U.S. businesses to rapidly deploy these new novel nanotechnology 
products and services in this global economy.

NIST Labs

    As someone who possesses approximately 20 years experience as a 
senior executive and Director of high technology firms, I can relay 
many instances where the assistance of NIST laboratories was invoked.
    To put it simply, there is no test and measurement body on earth 
that has the credibility, experience, technical depth, and the 
thoroughness of NIST laboratories.
    Many of the divisions I was responsible for relied on NIST 
traceable standards and information on emerging trends for tighter 
tolerances and higher resolution requirements for industry.
    Companies like Newport Corporation, a leading manufacturer of 
laser/electro-optic equipment; Coherent, Inc., the leader in industrial 
and scientific lasers; Etec, Inc., a worldwide leader in MEMS test and 
measurement equipment; and Edmund Industrial Optics, a global leader in 
the optics industry relied on NIST traceable standards and insights on 
new trends for tighter tolerances and resolution requirements for 
industry. All relied on NIST expertise.
    If you mentioned to your potential customers that NIST was either 
consulted, used, or the originator of certain data you presented, you 
could rest assured that it was never questioned and provided your firm 
with instant credibility of one's products, services, and/or processes.
    I'm often invited to give keynote speeches and advice to 
universities such as MIT and Harvard, and trade organizations such as 
the NanoBusiness Alliance and SEMATECH. Many times, I find myself 
directing them towards the NIST labs to retrieve materials and 
information in order to assist them in identifying technical trends and 
needs.
    As I previously mentioned, there is no entity that I know of, that 
has technical depth, practical industrial experience, and vision in 
helping United States industry look at new trends in test and 
measurement.

Zyvex's NIST-ATP

    I was never a big supporter of government spending on R&D funding--
for any industry. I subscribed to the philosophy (and still do today) 
that private industry's role is to bring about innovation based on 
market drivers. Yet September 11th had a powerful effect on the way I 
think about the urgency of innovation. It's all too apparent to me, 
that leading technology holds the key to our fight on terrorism at home 
and abroad. As you're acutely aware, American lives are at stake and we 
need to do everything humanly possible to protect the lives of our 
American soldiers, first-responders, and citizens.
    There are over 2,700 law enforcement officers who have been spared 
either death or disabling injury as a result of NIST-developed 
standards for bullet resistant vests. Intelligent machines influenced 
by NIST's real-time control system, a concept for controlling 
automation, have helped to keep U.S. troops out of harm's way by 
clearing land mines. The military and other users have saved millions 
of dollars thanks to NIST's contributions to the testing of antennas 
used for communications to and from satellites.
    Zyvex's NIST-ATP has allowed us to develop instrumentation that 
DARPA has identified as being critical to our armed forces and 
laboratories. I'm very proud of this and all the Zyvex employees who 
are so diligently working on this project.
    Through our assembly and manufacturing technology we have been able 
to develop a very inexpensive Mini-SEM prototype that will, for the 
first time, allow soldiers and scientists to use this kind of 
microscope on samples in the field--instead of having to take the 
sample to the microscope in a lab. Detecting biohazards in minutes--
rather than hours--will not only save time--it will save lives.
    While some mistakenly characterize the NIST-ATP as corporate 
welfare, I'm here to tell you that Zyvex is a real-world example of a 
small business that is leveraging this program to commercialize 
nanotechnology--today. We are today creating new markets and new jobs.
    As anyone who knows me will attest, I'm known for profitably 
growing companies, not wasting money. NIST is our business partner, not 
simply an organization that gives us money. We jointly share the cost 
and responsibility of bringing this new technology to the marketplace.
    Thanks to our ATP, we've hired fifteen new employees in 2003; and 
plan to hire, at least, another twenty-five new employees in 2004. We 
support researchers at universities in Texas, Colorado, Michigan, 
Massachusetts, California, Virginia, and New York. We're developing a 
new manufacturing technology that will drive innovation in the silicon 
micro-machine domain. The impact of parallel micro-assembly on the 
broader economy will be in the billions of dollars and will ultimately 
create thousands of high value manufacturing jobs--here in America.
    I've grown increasingly wary as I travel all over the world and see 
how aggressive countries such as China, Taiwan, Japan, and the European 
Community are funding initiatives very similar to NIST. I ask myself--
what type of legacy will we be leaving to our future scientists and 
engineers if we decrease NIST's budget? I also ask myself--what kind of 
economic opportunities will our children have if the United States 
loses its industrial competitiveness to other countries?
    Many people will argue that with the War, these cuts are necessary. 
I ask how can we continue to fight a war on terrorism without 
developing the critical technology that is needed in the next decade? 
We're not only at war with terrorism, we are in the midst of a 
significant world-wide battle for technical prowess to sustain and 
increase our technological leadership in the world--the greatest 
economic battle of our lifetime.
    Anything but increasing NIST funding is surrendering our economic 
prosperity and giving up on our promise to our children--a promise for 
a higher quality of life.
    Once again, I'd like to commend you and your colleagues--for your 
courage, your patriotism, and your vision.
    Mr. Chairman and Members of this committee--I want to personally 
thank you for your time and for this honor.

                    Biography for Thomas A. Cellucci

    Tom Cellucci is the President and Chief Operating Officer at Zyvex 
Corporation. He is also a member of Zyvex's Board of Directors.
    Cellucci is internationally recognized for Cellucci Associates. 
Inc. (Wellesley, Massachusetts), a highly successful management 
consulting firm he founded in 1999 which was primarily engaged in 
raising capital and providing strategic business services to high-tech 
global firms.
    Cellucci has extensive senior executive experience in profitably 
growing businesses. Most recently, he was President and CEO of Etec, 
Inc. (Peabody, Massachusetts) and Executive Vice President and General 
Manager of Integrated Dynamics Engineering (Westwood, Massachusetts and 
Raunheim, Germany). Prior to joining Integrated Dynamics Engineering, 
Cellucci held the position of Senior Director at the Newport 
Corporation (Irvine, California). He was also a Research Chemist for 
Shell Oil Company (Houston, Texas), where he was also elected President 
of Shell's then eighteen-thousand member Employee Association.
    Cellucci has authored or co-authored over 97 articles on 
nanotechnology, environmental disturbance control, laser physics, 
photonics. MEMS test and measurement and high-tech sales and marketing. 
Cellucci was also a co-author of the ANSI Standard Z136.5 entitled 
``The Safe Use of Lasers in Educational Institutions'' published in 
March 2001.
    Cellucci currently serves on several Boards, most notably on the 
Board of Edmund Industrial Optics (Barrington, New Jersey), the Laser 
Institute of America, and serves as special advisor to the Board of 
MANCEF (Micro- and Nano-Commercialization Education Foundation). In 
addition, Cellucci is a member of the NRSC Senatorial Trust--a small 
group of distinguished business and political leaders nominated by 
United States' Senators to meet on a regular basis with the highest-
ranking members of the government. such as the President of the United 
States, Senators, and Legislators.
    Cellueci is a member of the James Smithson Society (Smithsonian), 
the American Chemical Society, the Autism Advisory Council for the 
Autism Alliance for the MetroWest region of Massachusetts, and the Big 
Brothers-Big Sisters Program.
    Cellucci holds a Ph.D. in Physical Chemistry from the University of 
Pennsylvania, an MBA from Rutgers University, and a B.S. in Chemistry 
from Fordham University. He has also attended several senior executive 
courses at the Wharton School of Business. MIT's Sloan School of 
Business, and the Harvard Business School, where he is often invited to 
speak on nanotechnology.

    Chairman Ehlers. Thank you.
    Mr. Jasinski.

 STATEMENT OF MR. JAMES J. JASINSKI, VICE PRESIDENT OF FEDERAL 
   AND STATE SYSTEMS FOR COGENT SYSTEMS, PASADENA, CALIFORNIA

    Mr. Jasinski. Thank you, Mr. Chairman, for this opportunity 
to make a short presentation and discussion about the 
contributions that NIST has made to the United States in our 
War on Terrorism and in the homeland security front.
    There are two areas, which I would like to focus in on. One 
is the NIST standards that have been developed for AFIS 
systems, automatic fingerprint identification systems, which we 
all benefit on a daily basis from. During the 1980's and the 
1990's, I worked for the FBI. And during that time, there were 
a number of AFIS systems that were being developed. Each system 
did not inter-operate, could not communicate with one another. 
Because of NIST's leaderships, the systems today are able to 
communicate with one another. For example, if somebody is 
arrested in Los Angeles or in London, England or in Moscow, all 
use the NIST-established AFIS standards. And we are able to 
search each other's databases to make the determination whether 
or not somebody is particularly wanted or should be 
particularly suspicious to the United States or should be held 
for some other reasons. Those standards are commonly known as 
the NIST standards and every AFIS system that is deployed 
around the world is in compliance with the NIST standards, and 
every procurement that goes on the street always references 
compliance with NIST. So its impact has been universal around 
the world.
    The second area in which I think that you can see 
immediately the benefit of NIST is the recent deployment of the 
U.S.-VISIT program. When U.S.-VISIT was first being proposed, 
there was a--the system that was being supported was a two-
print system. That two-print system had a lot of critics to it. 
That two-print system, allegedly, was going to have a number of 
inaccuracies both in identifying somebody and also falsely 
identifying somebody. During the April/May time frame period of 
last year, when the system was first being conceived 
operationally, NIST was able to step in and validate the system 
that with a two-print system, could achieve a high degree of 
reliability and a very small degree of selectivity so that the 
person was not falsely accused.
    In addition, as we speak today, NIST is working with 
Homeland Security in that U.S.-VISIT program in trying to 
establish threshold standards and trying to determine at what 
level do you have to set the biometric matching capability so 
that you would maximize the performance of the systems. That 
system is constantly evolving, and it is NIST's leadership in 
working with Homeland Security in establishing those standards 
so that the system can be optimized.
    NIST has shown itself not simply in those two systems but 
in--also in providing leadership around the world. Just 
yesterday afternoon, we had visitors in from Hong Kong who are 
deploying a new system for their citizens where they are going 
to issue cards. Those cards are going to obtain the biometrics. 
That biometric is going to be used in trying to establish your 
ability to vote, your right to charges, your right to the 
subway system, your right to withdraw books from the library. 
They met with NIST yesterday to discuss what works in the 
biometric field and what standards should be established. They 
were--we walked away from that meeting, and they were extremely 
impressed with the insight and knowledge that NIST was able to 
present to them. Cogent is working with Hong Kong in this and 
it clearly benefits us in trying to establish those standards.
    I thank you.
    [The prepared statement of Mr. Jasinski follows:]

                Prepared Statement of James J. Jasinski

    Thank you for the opportunity to appear before this Committee on 
Science to review Cogent's experience working with the NIST, to 
articulate the success derived from that association, and to identify 
how that success can continue and in fact grow.
    Cogent is an American company founded 14 years ago by U.S. 
citizens. Our corporate headquarters is in South Pasadena, California 
with affiliated offices in five countries. From our corporate 
headquarters we have deployed Automated Fingerprint Identification 
Systems (AFIS) at the national, state and local levels. This includes 
over 45 foreign countries, such as the United Kingdom, Italy, Bulgaria, 
Russia, Taiwan, Hong Kong, Singapore, Honduras, Algeria, and dozens of 
others providing us a presence on five continents. Traditionally, four 
major AFIS companies have serviced this market. Of these four 
companies, one other is U.S. based and the remainder are foreign 
corporations.
    The focus of this statement is on two primary topics:

        1)  NIST's role in establishing fingerprint inter-operability 
        within the United States and around the world;

        2)  NIST contributions to the universally acknowledged 
        successful deployment of the U.S.-VISIT Program.

1) Inter-operability Standards

    The history of AFIS technology in many ways mirrors that of 
technology in general, i.e., the evolution from proprietary standards 
to open standards. Just like in the 1970s, the purchase of one 
information mainframe system meant the inability to inter-operate with 
that of a competitor, the AFIS users found themselves in a similar 
situation. This meant that someone arrested in one State could not have 
his fingerprints automatically searched against fingerprint records of 
another State. This clearly was unacceptable. Therefore, when the 
Federal Bureau of Investigation (FBI) undertook its Integrated 
Automated Fingerprint Identification System (IAFIS) project, open 
standards had to be developed to ensure that upon the completion of 
IAFIS the States and the FBI would be able to routinely exchange 
fingerprint information.
    NIST provided the nexus between the system developers and the end 
users of the systems that allowed the development and acceptance of 
open standards for exchanging fingerprint information. Today, in the 
AFIS community, all major government sponsored AFIS acquisitions 
require any proposed AFIS solution must be ``NIST Compliant.'' ``NIST 
Compliance'' is shorthand for approximately 15 standards dealing with 
fingerprints--from the header, to the image quality, to compression, to 
today the complete palms. These standards have been openly reviewed, 
developed, and deployed by all parties working in this area and have 
been universally accepted. As a result, around the world today, AFIS 
systems are routinely inter-operable at the system level. While, these 
standards allow the systems to work together, at the same time they 
protect the uniqueness of each system and the investment each company 
has put into its technology.
    As illustrative of the success of those NIST standards, while I was 
in the FBI, I chaired Interpol's AFIS Expert Working Group. At that 
time Interpol was acquiring an AFIS system for itself and for 
interfacing with over 100 members. The solicitation for that 
procurement required ``NIST Compliance'' for any vendor proposed 
system. The value of such a system is proven everyday when countries 
around the world exchange their fingerprint data with one another--all 
because of NIST leadership.

2) U.S.-VISIT

    For many years the U.S. has been aware of the problem of tracking 
visitors to the United States. As part of the initial efforts to try 
and establish a process for such a tracking system, Homeland Security 
announced on April 29, 2003 a plan to begin establishing a biometric 
system to perform this task by the end of 2003. In establishing this 
system, a number of issues sprung up; how many fingers were necessary--
from 2, 4, 6, 8, 10, should they be rolled or flat captures, can a 
database of mixed flat and rolled fingers be accurately searched, 
operational accuracy, as well as a host of other related issues.
    At this time, a series of inaccurate, wrong, deceptive and self-
serving representations were made by a number of alleged biometric 
experts. Each sounded authoritative and knowledgeable, but each had 
more theory than reality in their pronouncements. This complicated any 
decision to proceed with this too often delayed national defensive 
system for if the critics were right, millions of dollars would be 
wasted. Fortunately, NIST helped resolve the outstanding issues and 
validate operational feasibility so U.S.-VISIT could be deployed. 
Before discussing NIST's role in resolving these issues, please let me 
take a few moments to provide some background information on AFIS 
systems.
    In assessing the performance of a system you look at four major 
factors:

        1)  Accuracy;

        2)  Database size/composition;

        3)  Number of fingers searched;

        4)  Throughput--how many comparisons can be done in a set time.

    In AFIS technology accuracy is a term of art. Accuracy has two 
sides--finding someone in a database (called ``reliability,'' ``Type1 
Rate,'' ``True Acceptance Rate'' (TAR)) and falsely finding someone 
(called ``selectivity, Type 2 Rate,'' ``False Acceptance Rate'' (FAR). 
These accuracy rates are a set of measures used to understand the 
performance of the system with respect to the system's ability to 
correctly process the presences or absence of an individual's 
fingerprints in a database. Therefore, the terminology is as follows:

        <bullet>  Accuracy is the measure of ability of the system to 
        correctly match the fingerprints of an individual to that 
        person's fingerprints in the database.

        <bullet>  Type 1 Errors, also known as False Reject or False 
        Non-Match is the measure of the system's inability to correctly 
        match a set of fingerprints to a mating set of fingerprints 
        that are in the database.

        <bullet>  Type 2 Errors, also known as False Accept or False 
        Match is the measure of the system's inability to correctly 
        differentiate between a set of fingerprints and another set of 
        fingerprints within a database.

    AFIS systems are impacted by the amount of data, the quality of the 
images, and whether what is stored is a rolled or flat fingerprint 
image. The size of the database determines how much time is necessary 
to determine if there is or isn't a match. In making that comparison, 
the quality of the images either being searched or stored significantly 
affect search results. As NIST has stated, 35 bad images are not as 
valuable as one good one. Then, for most AFIS systems, whether the 
image is rolled or flat or whether they are intermixed will impact 
search results.
    Additionally, how many fingers that are searched will impact system 
accuracy. As a general rule, more quality images are better than fewer 
quality images, but results are not linear. That means one cannot 
project that a search of a finger with certain results proportionately 
improves with each additional finger searched. Rather accuracy is a 
function of many factors such as the design of the search process, the 
quality of the images, the time for the search, etc.
    Finally, AFIS systems performance are impacted by throughput--how 
many transactions do you need to process within a set amount of time. 
Frequently, to achieve greater throughput accuracy is sacrificed.
    In assessing the performance of an AFIS system the above factors 
must be balanced with the application environment in determining 
effectiveness.
    When U.S.-VISIT was announced, a number of companies, foreign and 
domestic, immediately attacked the biometric approach. Their 
representations were presumptive and unfounded, but because of their 
position in the market, given credibility. As the U.S.-VISIT system was 
being developed, with the proposed approach to expanding the proven 
technology used by DHS for its IDENT program, a number of inaccurate 
reports and statements became common in newspapers, trade periodicals, 
and commentaries. For example, a leading system integration 
organization issued a White Paper to DHS that made the following 
comments regarding the plan to use IDENT technology for U.S.-VISIT:

         ``However, the current IDENT system has not been proven to 
        meet the IDENT system Accuracy & Type 1 Error Rate requirements 
        and further is believed to fall substantially below expected 
        Accuracy. The engineering estimate values used in this 
        evaluation were 75 percent accuracy, 25 percent Type 1 Error 
        Rate and 0.6 percent Type 2 Error Rate.''

    Such assessments raised unfounded concerns about the viability of 
the biometric deployment for U.S.-VISIT, for if accurate would 
essentially mean an unacceptable low reliability rate of 75 percent 
with every fourth traveler being sent to a secondary examination.
    The above White Paper then went to state:
    ``As the current IDENT system is not meeting Accuracy and Type 1 
Error Rate specification,.. . .The spreadsheet contains an engineering 
estimate of the real values. The engineering estimate is based on an 
extrapolation of the independent Criminality Study as well as a small 
ad-hoc system test.. . .This data was not truly randomly sampled and 
had a quantity of low quality data removed from the set. Those factors 
skewed the results indicating higher Accuracy than is believed to be 
truly available in the current environment. A further indication that 
the values were skewed was that these values taken together as an 
``operational point'' represent a significantly higher capability than 
is currently published as state-of-the-art for commercially available 
AFIS systems. These ``best measured'' values were not developed from a 
realistic test and are not believable.. . .

    This report was based upon based the Systems Integrator's knowledge 
of their AFIS system's capability coupled with a flawed mathematical 
calculation in the referenced criminality report.
    That criminality report was published in October 2000 entitled 
IDENT/IAFIS IQS. Cogent had no participation in that report and as a 
result the basis for the number comes from IAFIS results of a two 
fingers search using the
    IAFIS system--not the Cogent IDENT system. Of particular note, in 
calculating the number of Cogent errors, the report did not convert the 
measured Type 2 error rate of .16 percent correctly as they did not 
convert the type 2 percentage to a decimal number.
    In addition, other alleged experts were heavily spreading 
misinformation on the proposed system's overall performance and falsely 
charging an inability to grow with the workload.
    Given this context, NIST was tasked to validate the system--from 
accuracy to throughput. NIST timely performed its mission. However, in 
performing this testing NIST stretched its equipment capacity as shown 
by running CPUs at 100 percent utilization, storage contentions, 
database management software licenses, and using old chemical labs 
instead of computer facilities to perform the testing. Their successful 
testing of the system and repudiation of the many false statements 
allowed the scheduled deployment to proceed as announced. This means a 
safer America for with the system in place, since January 5, 2004, 
hundreds of individuals have been identified for further investigation 
prior to their being allowed to enter this country. Some are 
subsequently banned from entering, some are arrested and some are 
allowed entry, however each determination is made with the greater 
certainty than was ever before deemed possible. In fact one Immigration 
officer described the system as ``a wonderful Christmas gift.''
    Even today, after the successful implementation of U.S.-VISIT, the 
same critics who predicted system failure and performance problems 
continue to push their less than honest agenda. To be sure, all systems 
are a balancing between operational requirements, business procedures, 
and acceptable performance characteristics. No one would argue that 
more data is better than less data, however the context for that 
question is what is the impact to your business processes in acquiring 
that additional data, what is its cost, and what are its advantages. In 
making those judgment calls, NIST must continue to perform the roll of 
the honest broker so that Agencies understand what are the true trade-
offs for the final decision in implementing biometric technology.
    For example, with U.S.-VISIT, the decision to capture more fingers 
in future applications must trade off the additional equipment and 
labor costs in capturing those fingers with the improvements to the TAR 
(reliability) and the FAR (selectivity) with less manpower in the back-
end of the system. To date, NIST has shown that the TAR for a two print 
system remains constant as the system grows, at least for the limits of 
its available database size of about 6 million subjects, while the FAR 
rises in a predictable linear fashion. That same testing has shown that 
good images are more important for the system's TAR/FAR results than 
multiple bad images taken from the same person. Simultaneously, the 
testing has shown that more fingers does increase the probability of 
obtaining more usable data and that FAR levels can be essentially 
maintained as the database grows. Additionally capturing more fingers 
allows for sequence checking and is of greater value for latent 
searches. All of this is subject to current NIST database sizing 
limitations and highlights the continuing important role for NIST in 
U.S.-VISIT.
    This is but an example of the importance of their role in 
validating technology claims and clearly indicates the importance of 
increasing and enhancing that role. As technology grows within society 
the resources required to validate them correspondingly grow. 
Illustrative is the Fingerprint Vendor Technology Evaluation (FpVTE) 
2003. That evaluation addressed system performance of fingerprint 
matching algorithms. It required significant equipment, vast amounts of 
data, and knowledgeable personnel to perform the evaluation. Due to 
resource limitations the scope of the test was restricted to areas that 
NIST could independently validate with its available resources. That 
means that the test could measure only targeted areas not total system 
performance. And even in performing the targeting testing, because of 
resource limitations ranging from equipment to data, the testing could 
not empirically validate all of its target performance objectives but 
rather had to defer to extrapolations of data.
    Cogent believes that if NIST was appropriately funded, NIST can 
perform fuller and more robust empirical testing of systems, 
technologies, and theories. With that additional funding, instead of 
merely testing a target objective, it can perform empirical system 
testing of products that could not only demonstrate American 
technology, but assist in keeping its leadership by either exposing or 
disproving unreliable systems.

                    Biography for James J. Jasinski

Employment History

Cogent Systems, Inc., Reston, Virginia, Vice President for Federal and 
State Systems, May, 2002-Present. Mr. Jasinski is responsible for 
Cogent's Federal and State systems. His duties include personnel, 
facilities, operations, and performance standards for Cogent's Federal 
and State customers. He reports directly to Cogent's Chief Operations 
Officer, Ming Hsieh.

DynCorp Systems and Solutions, Chantilly, Virginia, Vice President 
Civil Systems, 2000-2002. Mr. Jasinski was responsible for directing a 
staff of business development specialists assigned a variety of federal 
agencies. He had budgetary and personnel authority with specific goals 
and objectives for each employee and agency. During his tenure, his 
staff both by employee and agency achieved their assigned objectives.

Federal Bureau of Investigation, 1978-2000. Mr. Jasinski retired as a 
Special Agent and as a member of the Senior Executive Staff, Level 4 
with 23 years of service. During his service he had the following 
assignments:

        <bullet>  IAFIS Program Manager, 1997-2000--This Presidential 
        Priority Program was the largest development project ever 
        undertaken by the FBI. The total budget for the program was 
        8640 million and at its peak had almost 1000 federal and 
        contract employees working on the project. Its objective was to 
        convert the FBI's fingerprint identification system of 40 
        million cards from a semi-automated system into a fully 
        automated system using specially trained personnel for search 
        results verification. The primary objective of the system was 
        to eliminate the 3 million fingerprint card backlog and reduce 
        the FBI's response time for criminal history searches from 
        months to 24 hours or less, while processing over 62,000 
        requests per day. When the system went operational, all 
        articulated system and operational requirements were either met 
        or exceeded. Since going operational in July of 1999, the 
        system has received numerous accolades and accomplishments and 
        is universally recognized as an unqualified success.

        <bullet>  FBI's Chief Contracting Officer, 1984-1997--
        Responsible for the management of the FBI's centralized system 
        for all covert and overt procurements. His duties included 
        overseeing a staff of over 90 procurement specialists and 
        attorneys. This staff of professionals was responsible for 
        fulfilling all the operational procurement requirements of a 
        large federal agency with full compliance to all federal 
        procurement regulations.

        <bullet>  FBI Litigation Attorney, 1982-1984--Staff attorney 
        responsible for providing legal counsel to FBI field office 
        special agents conducting ongoing investigations and 
        representing the FBI in judicial proceedings. His work included 
        all aspects of legal litigation and administrative reviews.

        <bullet>  FBI Field Office Special Agent, 1978-1982--General 
        investigative duties ranging from employment background 
        investigations to criminal and foreign counter intelligence 
        investigations.

        <bullet>  Attorney, 1976-1978--Private practice attorney in New 
        York State, with a primary focus in contract law and contract 
        litigation.

Education

Juris Doctor, Albany Law School, Union University, 1976.

Bachelor of Arts, State University of New York at Buffalo, 1973.

        <bullet>  Approximately 1700+ hours of Procurement and Program 
        Management classes while working for the FBI.

    Chairman Ehlers. And thank you.
    And to end this panel's testimony with a blaze and give a 
fiery speech, we turn to the expert on fire, Mr. Biechman.

 STATEMENT OF MR. JOHN BIECHMAN, VICE PRESIDENT FOR GOVERNMENT 
        AFFAIRS FOR NATIONAL FIRE PROTECTION ASSOCIATION

    Mr. Biechman. Thank you, Chairman Ehlers, Ranking Member 
Udall, and Members of the Committee. I am honored to appear 
before you today. NFPA is a non-profit organization with a 
mission to save lives through education and training, fire 
research and analysis, and the development of consensus codes 
and standards that are adopted by governmental jurisdictions 
throughout the United States and widely used by the Federal 
Government.
    NFPA's 300 codes and standards are accredited by ANSI and 
developed by fire protection engineers, enforcement officials, 
architects, the fire service, and other technical experts 
participating as volunteers in the consensus process, a process 
that Congress has affirmed with the passage of the National 
Technology Transfer and Advancement Act of 1995 and OMB clearly 
defined in its Circular A-119. And currently, at least 12 NIST 
employees participate in the NFPA consensus process committees.
    I wish to express NFPA's support for the Building and Fire 
Research Laboratory at the National Institute of Standards and 
Technology, NIST, and to urge the Committee to ensure adequate 
funding for the BFRL and other laboratories in fiscal year 
2005. Additionally, we believe that the Committee should 
consider reauthorization of the NIST labs to include their 
increased duties and responsibilities in a post-9/11 world.
    NFPA's relationship with NIST, known at the time as the 
National Bureau of Standards, began just over 100 years ago, 
following a devastating fire in Baltimore that we heard a 
little bit about earlier. Response to the fire came from 
departments as far away as New York. However, similar to 
communications systems problems encountered on September the 
11th, the departments responding to the fire in Baltimore could 
not use one another's fire hoses due to differing hose threads. 
Following the fire, the Bureau of Standards called upon NFPA 
and others to assist in the study of hose couplings. Based on 
that research, NFPA adopted its first Standard for Fire Hose 
Connections.
    Over the past century, NIST has successfully aided in the 
knowledge and advancement of fire and building safety measures 
that include improvements at many levels of government and 
facets of safety. For example, in the area of fire modeling, 
the first use of NIST's resources was at an NFPA fire 
investigation at the DuPont Plaza Hotel fire in Puerto Rico in 
1986. The Fire Research Division of the BFRL has also studied 
fires in the Urban/Wildland Interface with research benefiting 
those in our rural communities. From this type of research, the 
BFRL is able to develop computer fire modeling to help the fire 
service better understand fire dynamics, protect occupants and 
firefighters, and assist in building safer buildings in the 
future.
    The State of New York, in its effort to reduce fire deaths 
caused by fires ignited by cigarettes, has utilized NIST's 
testing protocol to determine the efficacy of the ``fire safe'' 
cigarette. NIST led an investigation team, including NFPA, to 
Kobe, Japan following the 1995 earthquake to study building 
collapse, infrastructure, and the fire that followed the 
earthquake. The BFRL developed a gas burner to reproduce fire 
situations experienced in mattress fires. Further, the CPSC is 
now working with NIST to develop a test to identify non-
compliant mattresses in the marketplace that would support an 
open-flame standard currently proposed by CPSC.
    In an agreement with the U.S. Fire Administration, NIST 
research will lead to the development of more effective 
firefighter protective clothing and will work to enable the 
Department of Homeland Security to continue to adopt the 
equipment standards similar to the NFPA standards for 
firefighter protective clothing that was recently adopted by 
the Department.
    It is not enough, however, to simply recount the good works 
of NIST. We believe that the BFRL now finds itself in the 
position of being asked to do more with less at a crucial time. 
This has been asked by the National Construction Safety Team 
Act of 2002 to conduct an investigation into the collapse of 
the World Trade Center Towers. As part of that investigation, 
NIST is working on the causes of building failure and issues, 
such as fire and smoke resistance construction. NIST is also 
working with the American Society of Mechanical Engineers, 
NFPA, the elevator industry, and others to begin developing the 
technical basis for revisions to elevator standards for use in 
occupant evacuation and fire service access during emergencies 
in high-rise buildings. The Construction Safety Team is also 
investigating the deadly fire at the Station Night Club in 
Rhode Island.
    To date, the Congress has not appropriated funds to enable 
the Construction Safety Team to conduct its work. Without 
appropriate funding, NIST will not be able to properly train or 
equip staff to conduct additional investigations, should the 
need arise. Additionally, legislation has been passed by the 
House of Representatives and awaits Senate approval 
reauthorizing the National Earthquake Hazard Reduction Program, 
the House-passed bill authorizes NIST's Building and Fire 
Research Laboratory to become the responsible federal agency 
for the program.
    Mr. Chairman, there is no other laboratory in the United 
States as capable as the NIST Building Fire and Research 
Laboratory, conducting research for the public good. I am not 
aware of any outside source of funding to conduct such needed 
research. The proposed fiscal year 2005 funding for the BFRL 
still does not approach the kind of funding necessary to carry 
out the added workload of the lab. The consequences of the 
budget restrictions this year in NIST have resulted in a 
difficult reprioritization of ongoing projects and planned 
research being delayed. NFPA trusts that the Congress will 
ensure that the labs receive the authority and the funding 
necessary to conduct their important business.
    Thank you, Mr. Chairman, for this opportunity to address 
the Committee, and I would be happy to take questions, if you 
have any.
    [Statement of Mr. Biechman follows:]

                  Prepared Statement of John Biechman

    Chairman Ehlers, Ranking Member Udall and Members of the Committee, 
I am honored to appear before this committee today. My name is John 
Biechman and I am Vice President for Government Affairs of the National 
Fire Protection Association (NFPA). NFPA is a non-profit organization, 
founded more than 100 years ago, with a mission to save lives through 
fire and life safety education and training, fire research and 
analysis, and the development of consensus codes and standards that are 
adopted by governmental jurisdictions throughout the United States and 
widely used by the Federal Government.
    Today NFPA has approximately 300 codes and standards addressing 
safety, each accredited by the American National Standards Institute 
(ANSI) and developed by fire protection engineers, enforcement 
officials, architects, the fire service and other technical experts all 
participating as volunteers in the consensus process. This process 
ensures that all interested parties have a say in developing codes and 
standards, a process that Congress affirmed and supported with the 
passage of the National Technology Transfer and Advancement Act of 1995 
(P.L. 104-113) and the Office of Management and Budget clearly defined 
in OMB Circular A-119.
    I am here today to express NFPA's support for the Building and Fire 
Research Laboratory (BFRL) at the National Institute for Standards and 
Technology (NIST) and to urge the Committee to ensure adequate funding 
for the BFRL and NIST's other laboratories in the Fiscal Year 2005 
budget. Additionally, we believe that it is appropriate that the 
Committee consider reauthorization of the NIST labs to include its 
increased duties and responsibilities in a post-9-11 world.
    NFPA's relationship with NIST, known at that time as the National 
Bureau of Standards, began just over 100 years ago as the result of a 
devastating fire in the City of Baltimore, destroying 2,500 buildings 
in an 80-block area in the heart of the City. Response to the fire came 
from fire departments as far away as Washington, DC, Philadelphia, and 
New York City. However, similar to the problems encountered with a lack 
of inter-operable communications systems at the World Trade Center 
Towers on September 11th, the various fire departments responding to 
the Baltimore fire found that they could not use one another's fire 
hoses because of Baltimore's hydrant system and differing fire hose 
threads from the various departments. Shortly after the fire the 
National Bureau of Standards called upon NFPA and others to assist in a 
study of hose couplings across the Nation. Based on the research 
provided by NBS, the NFPA adopted as national models in 1905 a standard 
hose coupling and an interchangeable coupling device for non-standard 
hoses. Today the document is recognized as NFPA 1963, Standard for Fire 
Hose Connections providing a level of uniformity enabling fire 
departments to provide coverage to one another.
    Over the past century NIST and the BFRL have successfully aided in 
the knowledge and advancement of numerous fire and building safety 
measures that include improvements at many levels of government and 
facets of safety, for example:

    In the area of fire modeling the first major use of NIST's 
resources on modeling was an NFPA fire investigation at the DuPont 
Plaza Hotel fire in Puerto Rico in 1986. The Fire Research Division of 
the BFRL has also studied fires in the Urban/Wildland Interface with 
research benefiting those responsible for protecting our rural 
communities. From this research the Fire Research Division is able to 
develop computer fire modeling to help the fire service better 
understand fire dynamics and protect occupants and firefighters, and 
assist in building safer buildings in the future.
    The State of New York, in its effort to reduce the number of fire 
deaths caused by fires ignited by cigarettes, has utilized NIST's 
testing protocol to determine the efficacy of ``fire safe'' cigarettes.
    NIST led an investigation team, including NFPA, to Kobe, Japan 
following the January, 1995 earthquake to study building collapse, 
infrastructure and the fire that followed the earthquake.
    The NIST BFRL developed a gas burner to reproduce fire situations 
experienced in mattress fires. The State of California has passed into 
law an open flame standard for mattresses and utilizes the protocol 
developed by NIST which will lead to the production of less flammable 
mattresses. Further, the CPSC is working with NIST to develop a test to 
identify non-compliant mattresses in the market place that would 
support a national open-flame standard currently proposed by CPSC.
    Following catastrophic events at nightclubs in Rhode Island and 
Chicago, NFPA incorporated changes to its codes and standards. Experts 
from the BFRL worked within the NFPA code amendment process and ensured 
that the changes made to the code were based on sound technical 
information. Currently at least 12 NIST employees participate on NFPA 
Standards Development Technical Committees.
    Current research, under cooperative agreements with the U.S. Fire 
Administration, at the BFRL will lead to the development of better and 
more scientifically grounded methods of measuring the effectiveness of 
firefighter protective clothing in protecting the wearer from burns. 
Work such as this will enable the Department of Homeland Security (DHS) 
to continue to adopt equipment standards similar to the five NFPA 
standards for firefighter personal protective clothing adopted by DHS 
earlier this year.
    It is not enough, however, to simply recount the many instances 
that the good works of NIST and the BFRL have benefited the standards 
development outcome at NFPA and elsewhere. We believe that the BFRL now 
finds itself in a position of being asked to do more with less at a 
crucial time in our nation's history.
    NIST's role in firefighter personal protective equipment, 
flammability testing, fire modeling and seismic investigation are just 
a few examples of NIST's previous work. NIST and its Building and Fire 
Research Laboratory have now been tasked by the National Construction 
Safety Team Act of 2002 to conduct an investigation into the collapse 
of the World Trade Center Towers. As part of that investigation NIST is 
working on the causes of building failure and on issues such as fire 
and smoke resistant construction. NIST is also working with the 
American Society of Mechanical Engineers, NFPA, the elevator industry 
and others to begin developing the technical basis for revisions to 
elevator standards for use in occupant evacuation and fire service 
access during emergencies in high-rise buildings.
    In addition to the World Trade Center investigation the 
Construction Safety Team has also been assigned to investigate the 
deadly fire at the Station Night Club in Rhode Island where 100 lives 
were lost in the winter of 2003.
    To date the Congress has not appropriated funds to enable the 
Construction Safety Team to conduct its work. Without appropriate 
funding NIST will not be able to properly train or equip staff to 
conduct additional investigations should the need arise.
    Additionally, legislation has been passed by the House of 
Representatives and awaits Senate approval reauthorizing the National 
Earthquake Hazard Reduction Program (NEHRP), the House passed bill 
authorizes NIST's Building and Fire Research Laboratory to become the 
responsible federal agency for program implementation.
    Mr. Chairman, there is no other laboratory in the United States as 
capable as the NIST Building Fire and Research Laboratory; conducting 
research for the public good. I am not aware of any ``outside'' source 
of funding to conduct needed research. The proposed FY 2005 funding for 
the BFRL, while an increase over this year's budget, still does not 
approach the funding necessary to carryout the added workload of the 
lab.
    The consequences of budget restrictions this year at NIST have 
resulted in a difficult reprioritization of on-going projects and 
planned research being delayed. NFPA trusts that the Congress, 
understanding the importance of the NIST laboratories to our nation's 
safety and security will see to it that the labs receive the authority 
and funding necessary to conduct their very important business.
    Thank you again Mr. Chairman for this opportunity to address the 
Committee. I will be happy to take questions you may have.

                      Biography for John Biechman
    John Biechman serves as Vice President, Government Affairs for the 
National Fire Protection Association (NFPA). He has more than 25 years 
experience in government relations, public affairs and trade 
association activities. He serves as the primary advocate for NFPA's 
policies, programs and products within the Federal Government and as 
information liaison between Congress, federal agencies and Washington-
based allied private sector organizations.
    Prior to joining NFPA in March 2001, Biechman served as Deputy 
Assistant Secretary for Congressional Relations at the U.S. Department 
of Housing and Urban Development (HUD).
    Biechman's background also includes government relations positions 
with the Washington-based Building Owners and Managers Association 
International (BOMA). Prior to coming to Washington, Biechman served as 
Field Representative to former Representative Norman Y. Mineta, in San 
Jose, California and served on the City Council in Morgan Hill, 
California.

                               Discussion

       Impact of National Institutes of Standards and Technology 
     (NIST) Funding on Current and Future Developments Within the 
                    Science and Technology Industry

    Chairman Ehlers. Thank you, to all of you, for your 
testimony. It was excellent, and it gives us a good start.
    At this point, we will open our first round of questions. 
The Chair recognizes himself for five minutes. You have 
intimated this in your testimony, but I want to get some very 
direct statements for you. What would be the impact on your 
company or the organization--your organization or the companies 
you represent within your organization if NIST did not exist or 
if the funding remained stagnant or significantly declined? Mr. 
Hatano, we will just go right down the line. What would--how 
would it affect you in your industry, your organization, if 
NIST ceased to exist or its funding declined?
    Mr. Hatano. Our industry has grown because of Moore's Law, 
the ability to continue to shrink the transistor. We would not 
be able to do that without metrology. If we can't measure it, 
we won't be able to make it. So without NIST's activities and 
advancing the science and metrology, we would not be able to 
continue to increase the number of transistors on the chip and 
the subsequent decrease in costs that have allowed us to really 
create a lot of other industries downstream.
    Chairman Ehlers. Thank you.
    Ms. Grubbe.
    Ms. Grubbe. Quite simply, our business would stop, in my 
opinion. One starts to look at the ability to export and the 
need for measures and standards to export, the ability to use 
the atomic clock for global positioning systems. If you don't 
know where your freight is, if you don't know where your 
deliveries are, it is very hard to serve customers on a global 
basis. So if you take a look at very simple things, it grinds 
to a halt or makes it much more difficult. On a development 
end, it would definitely slow our ability to create more jobs, 
and it would hurt our profitability.
    Chairman Ehlers. Thank you. Dr. Cellucci.
    Dr. Cellucci. From my perspective, there are three items. 
We would lose global competitiveness to commercialize 
nanotechnology. Secondly, we could not further increase the 
development of products and services in the nanotechnology 
arena without the much needed nanometrology standards and 
measurements we need to get to these very tiny scales. And 
finally, there is one trend that everyone around the world 
agrees with in manufacturing: tolerances will get tighter and 
tighter and resolution requirements higher and higher. And 
without consensus standards, this will have a great impact on 
our ability to produce goods that people would want to spend 
their money on.
    Chairman Ehlers. Mr. Jasinski.
    Mr. Jasinski. There will be three areas, also. One is that 
biometric standards are still evolving, and if NIST isn't there 
to provide the leadership, who would be in that position to 
provide their leadership? Second is the ability to expose 
fraudulent claims, misleading claims. And the third is to 
validate the technology.
    Chairman Ehlers. Mr. Biechman.
    Mr. Biechman. NFPA's codes and standards are based on 
scientific evidence. NIST is the entity that really promotes 
and studies the scientific evidence. If we didn't have that, we 
would be basing a lot of our efforts on simply experience in 
the field, and the evidence would come in much more slowly, and 
therefore the updated codes and standards would be developed 
more slowly.

             Industry Suggestions on NIST Budget Increases

    Chairman Ehlers. I have another question for the panel as a 
whole. And that is can any of you give examples of 
technological opportunities currently not being exploited 
because of NIST's current funding levels, the fact that they 
are not being adequately funded? It is open to anyone who would 
wish to comment on that.
    Ms. Grubbe.
    Ms. Grubbe. Mr. Chairman, in my testimony that is on the 
record, and I also spoke to it, we identified four areas where 
we saw that if NIST had additionally funding, they would be 
able to help us accelerate development and help other 
industries accelerate development. One was in material science, 
more specifically bio-based materials. This is a new area where 
we are using enzymes to take the place in--the corn genome to 
take the place of oil and using that as intermediates for 
things like fabrics. The second area is in robotics, and NIST 
would be helpful in trying to accelerate the process of making 
more and more efficient and more cost-effective robots. The 
third is characterization of multi-component films, primarily 
for the packaging industry and also for the electronics 
industry. And fourth is the standardizing of protocols for 
thermoelectric measurements. There is not a lot of work going 
on in those areas right now.
    Chairman Ehlers. Thank you.
    Dr. Cellucci.
    Dr. Cellucci. Yes, Mr. Chairman. In my view, no one is 
better prepared than NIST to help in something we are all 
familiar with in the papers, and that is creating manufacturing 
jobs. A company like Zyvex has a long-term vision to 
revolutionize manufacturing. Think of a world where you had a 
capability to manufacture with atomic precision, building 
things atom by atom, molecule by molecule. This would have 
enormous impact on virtually every industry and homeland 
security, et cetera. And in order to time compress our 
timelines, we need a partner like NIST. We don't need a 
handout; we need a partner to help us compress that timeline to 
make sure that we win the global competition in having this 
capability and creating high value manufacturing jobs.
    Chairman Ehlers. Thank you. Mr. Hatano.
    Mr. Hatano. I mentioned that we have this Semiconductor 
International Technology Roadmap for Semiconductors. That lists 
over 100 measurements that are critical to our industry. What 
we do is look at what is the requirement. How much accuracy do 
we need in each of those measurements two years out, three 
years out, five years out, all of the way out to 2018. To give 
you an example of the situation we are in, if we look five 
years out, if we look out to 2008, of those 100-plus 
measurements, over half of them are colored red on our chart. 
Red means that there is no manufacturable solution that we 
currently have for that requirement. These are measurements to 
certain precisions that we are expected to do five years from 
now in the manufacturing environment and we don't have the 
solution today--that is why we need NIST. There are quite a few 
examples as you go through that list, and I have mentioned a 
few of them in my testimony.
    Chairman Ehlers. Thank you. Mr. Jasinski.
    Mr. Jasinski. The biometric area is a whole area that is 
just emerging, and if NIST doesn't provide the leadership, I am 
afraid that the United States might not be in the position to 
be in the forefront to developing that emerging market.
    Chairman Ehlers. Thank you.
    Anyone else?
    Thank you very much. Now I am pleased to recognize the 
Ranking Member, Mr. Udall.
    Mr. Udall. Thank you, Mr. Chairman.
    I want to pick up on your line of questioning, if I might. 
It has been very helpful to me to hear about the opportunities, 
frankly, that we have in front of us that if we don't have a 
fully operating and well-funded NIST, we are going to miss. Dr. 
Cellucci, pardon me, I pick up on your commentary on page nine 
where you talk about ``we are in an economic battle,'' an 
economic war, if you will, and there is a lot of indications 
that this is the most important front in the War on Terrorism, 
because unless we maintain our economic competitiveness and our 
leading role in the world, we are not going to have the 
resources nor the standing to pursue these people who threaten 
us and the ideology, as well as the hope, the despair, the 
illiteracy, the oppression that feeds terrorists, because we 
have to raise standards of living all over the world. So I 
think you are really onto something, and I hope you will 
continue to deliver that message wherever you go. In fact, we 
ought to take this panel on the road and--because you all have 
some very compelling examples of why this is so important 
across the technological landscape.
    If I could pick up on what the Chairman was talking about 
and go across the panel, if we did increase NIST's budget, what 
should that increase be? If all of you would like to comment, 
that would be very appropriate. Starting with Mr. Hatano, do 
you have any number--do you have a number in your head or an 
idea of what we are talking about here?
    Mr. Hatano. We don't have a number for the total NIST 
budget. There are a lot of parts within NIST that we don't have 
the expertise on. We are supporting the Administration's 
proposal with regard to the lab's budget for the semiconductor-
related technologies, the AML, the Advanced Measurement Labs, 
and the equipment facilities that go with that, as well as the 
manufacturing research piece. And we see that as a first step 
toward an increase more in line with a doubling their 
semiconductor effort. A few years back, in the mid-1990's, 
the--NIST formed an Office of Microelectronics, and when that 
was formed, they envisioned that it would be twice the size of 
what it is today. They formed it, and it never really 
increased, and so we would like to get it to the level that was 
originally envisioned when it was created.
    Mr. Udall. You would propose a doubling of the budget in 
that particular area, the semiconductor----
    Mr. Hatano. Right.
    Mr. Udall.--microconductor area?
    Ms. Grubbe.
    Ms. Grubbe. Mr. Congressman, I can't speak to an exact 
number, however, I think what we should do is identify all of 
the areas of program where there could be a hard value brought, 
and then from there, do the work around what needs to be 
supported, so let us start with what the work is rather than 
shoot for the number.
    Mr. Udall. Number.
    Dr. Cellucci. I would like to amplify what my colleague had 
just mentioned that. I tend to be a bottoms up kind of person. 
Let the people that are working on proposals have that reviewed 
by people, but I will tell you that from my perspective, it is 
well under budget if we are very serious about creating 
manufacturing jobs and keeping our competitiveness. In fact, I 
had a rare honor to give Karl Rove, the President, to brief him 
recently, talking about using nanotechnology to create energy 
independence. And one of the view graphs in there shows the 
number of Ph.D.s and hard science being generated in Asia 
versus the United States. And Asia kind of goes like this, the 
United States like this, and the sad part about the United 
States' slope is that many of the people in the United States 
who get their degrees go back to their originating countries. 
And so I ask them to think of a scenario where China is not 
only a low-cost producer but has the technological marbles. And 
that is a scary scenario for me, being a laser physicist who 
was stupid enough to get an MBA that we want the technological 
marbles, because that is a driver for our economy. So I think 
that more people than just the NIST people, in fact, should be 
involved in what the NIST budget is, because it is so 
pervasive, just as nanotechnology may be pervasive across the 
number of industries, so is NIST. It is one of these things. 
People don't recognize it, because it is not squeaking, it is 
not broken, but it is vital, in my view, in terms of 
technological competitiveness in the world.
    Mr. Udall. Mr. Jasinski.
    Mr. Jasinski. I don't think there is any way I can give you 
an exact figure on that. I can say that based upon my 
experience of working with NIST that their facilities are out-
moded. If you go to their testing facilities for the biometric 
area, it is an old chemical lab as opposed to a computer lab. 
The equipment that they use for doing the testing is many times 
overwhelmed by the tasking, so the CPUs are working at 100 
percent utilization, and the staffing is always that they are 
multitasked at the same time, so that you would define the goal 
of what you want to achieve. If you want to achieve the 
leadership, you have to at least double the staff and funding 
that is currently available for NIST.
    Mr. Udall. Mr. Biechman.
    Mr. Biechman. Mr. Udall, thank you.
    I would agree with Ms. Grubbe in that we need to do a good 
study of what it is that needs to be done by the NIST labs and 
base a budget on that. You indicated in your opening remarks 
that there were authorizations in excess of $100 million. I 
guess that that is probably the tip of an iceberg. There is 
much work to be done. I know they are doing work for CPSC, 
Department of Homeland Security, FEMA, and so forth and so on 
that are not appropriated funds. Those agencies may be 
transferring funds, but my guess is, not to cover all of the 
work they have to do. I would be happy to participate in 
helping make a listing of the things that do need to be done.
    Thank you.
    Chairman Ehlers. The gentleman's time has expired. Next we 
turn to the gentleman from Texas, Dr. Burgess.

       Advantage of the Science and Technology Industry Gaining 
          Funding From NIST Versus From Other Federal Agencies

    Dr. Burgess. Thank you, Dr. Ehlers. I want to thank you for 
convening this panel today. Acknowledging the Ranking Member's 
comments about taking the show on the road, in fact, we had a 
field hearing in the Science Committee down in my District in 
December, right after the President signed the nanotechnology 
bill, and Dr. Cellucci, I believe someone from your company, 
Zyvex Corporation, was there and testified at that hearing, so 
indeed we have taken the show on the road.
    My question for Dr. Cellucci is, and I appreciate your 
comments on the value added that NIST brings when you are able 
to site NIST as the source for verifying your data, but would 
it work as well if those funds came from some other federal 
agency? We have increased the NIST budget--or the President has 
increased the asked for the NIST budget in this year, but would 
those dollars be as wisely spent if they just came from some 
other federal agency that has jurisdiction over nanotechnology 
or nanometrology?
    Dr. Cellucci. That is an excellent question. It is very--
the--my answer will be what I normally give one of our sales 
and marketing people who continuously talks about the product. 
And what I will say to them is the product is much more than 
the entity that we put in a box and ship. We are part of the 
product. And in the same way, what I value so much with NIST is 
not the money. Quite frankly, we are a growing company. We are 
very excited. We are a leader in this space, but it is dealing 
with the personnel. It is not a cakewalk to work with NIST. We 
have put money in. They have put money in. These folks have a 
lot of experience. The best way I describe it is a relationship 
of tough love. They are like a mom. We have had six consecutive 
quarters of commercial success with our NIST-ATP. I am very 
proud of that, but what you don't see is every other week 
someone from NIST calling me, ``How are we doing with the 
commercialization?'' It is that constant prodding, that tough 
love, that expertise, sharing of the scars, so to speak, of 
trying things in technology that are just as vital to me, and 
in fact, in many ways, more important to a company like Zyvex 
than the money.
    Dr. Burgess. So the value added that NIST brings to your 
company is not just having their logo stamped on the box, it is 
also the expertise and the relationship you have built over the 
years?
    Dr. Cellucci. Absolutely.
    Dr. Burgess. Thank you.
    Chairman Ehlers. Thank you. And we now have a new name for 
NIST: ``Mama NIST.'' Just like Mom's Diner.
    We have time for another round of questions, so we will 
continue.
    Ms. Grubbe, in your testimony, you say there has been a 
disconnect between the Department of Homeland Security and 
NIST. And although NIST had the prior proven track record in 
technical matters, DHS was given the funding to do technical 
work and much time was wasted getting DHS up to speed. Could 
you expand further on this topic and, perhaps, give more 
specifics?
    Ms. Grubbe. My understanding is that there are some 
technologies that are currently in use or proposed use by the 
Department of Homeland Security with regards to airplane travel 
detection, threat detection that is being worked on, but could 
be--the work can be accelerated and can be increased and 
brought, you know, along in a faster timeline if there was more 
money put to it. I mean, you are--when you are limited, you are 
limited.
    Chairman Ehlers. Thank you. I appreciate that, and I agree 
with you. I had an idea for improving detection of dangerous 
materials in suitcases and passed it on to TSA. They all agreed 
it was a good idea. Nothing happened. Now I have passed it on 
to the Department of Homeland Security, DHS, and we will see 
what happens there. It is a very simple idea, not hard to 
implement, just nothing happens.

     Integration of NIST Study Results into Fire and Building Codes

    Mr. Biechman, I wonder if you could just give the Committee 
some examples, just for the record, for--of how building and 
fire codes have or may have changed as a result of the World 
Trade Center and the Rhode Island fire investigations, how is 
this process working? Do the results from NIST actually end up 
going into the fire codes and the building codes?
    Mr. Biechman. Yes. The studies that they have done on 
equipment of sprinklers and that kind of equipment certainly 
end up in our codes and standards. I think the issues of 
studying the Rhode Island fire and, you know, the World Trade 
Center collapse are, in many respects, behavior studies, 
those--in terms of what individuals did when the fire broke 
out. And we need to learn more about that kind of thing. The 
'93 explosions--bombing of the World Trade Center, NFPA and 
others went back in and helped developed better evacuation 
efforts, both from the building perspective as well as the 
human behavior perspective. Because of those improvements, I 
think a lot of individuals were able to get out of the World 
Trade Center on September 11. That kind of information that we 
have learned from fires, such as the Station fire, or the 
collapse of the Towers, will help us in developing codes and 
standards that affect people in the future.
    Chairman Ehlers. And do the codes and standards folks 
pretty well pick up on what NIST says follow through?
    Mr. Biechman. Yes. And they participate in our process as 
well. As you know, the Technology Transfer Act urges federal 
agency employees to participate in the process, so they not 
only bring, you know, a document that indicates their findings, 
but they actually are able to participate in the consensus 
process. So there is a give and take, and an understanding that 
I think adds more than just text or just an academic 
assessment, talking out the issue. The process, I think, is 
very, very beneficial to future safety.
    Chairman Ehlers. Thank you.
    My time is almost expired. Mr. Udall, you have one 
question?
    Mr. Udall. Thank you, Mr. Chairman.
    If I might, I would focus on Ms. Grubbe's comments for a 
minute. You talked about the MEP and how it helped DuPont and 
helped your Corian finishers. Can you give some idea of what 
would have happened without that MEP assistance?
    Ms. Grubbe. When one looks at our Corian finishers, at some 
level, because they are so dispersed, it is very difficult for 
them to--for us to communicate to them, because they are not 
only selling Corian, they are selling other kinds of materials. 
And the skills that are required for Corian are sometimes 
different than the skills required for--to install other kinds 
of materials. And so without a unifying body that is local to 
them, like MEP that is located wherever we sell it, which is 
countrywide, without that, we are not able to touch the local 
manufacturer as much as possible in the supply chain. So the 
more times that we can touch them, we not only improve the 
skill sets for them to install Corian, we are also improving 
their overall employee skill sets for them to make their 
business better. The question would be without that, our 
business would be diminished. It would not be able to grow as 
far as the consumer demand would require it, I believe, number 
one. And number two, the skill sets of the people that are in 
those businesses would be greatly reduced, and they would not 
be as competitive, which puts local jobs at risk.
    Mr. Udall. So arguably, this is an example of everybody 
operating with an enlightened self-interest motive, if you 
will?
    Ms. Grubbe. It works every time.
    Mr. Udall. It works every time. Yeah, it does.

    The Nature and Significance of the Advanced Technology Program 
                           (ATP) of the NIST

    I want to still keep you in the spotlight here and ask you, 
as a member of the Review Committee, the NIST Review Committee, 
what is your impression of the level of support for NIST by the 
Technology Administration and the Commerce Department?
    Ms. Grubbe. Excellent question. I believe that we have 
support. I believe we could use more support, in, you know, 
short answer. We have had interactions. We have had good 
discussion. I think there could be a lot more interactions and 
a lot more discussion.
    Mr. Udall. Understood, and hopefully registered, by all 
involved.
    Thank you for your service, by the way, on that board.
    Ms. Grubbe. My honor and pleasure, thank you.
    Mr. Udall. I think I have got a little bit of time left, 
and I thought I would come across the panel again and throw 
this question out at you. We have been discussing this 
implicitly, but you hear people talk about ATP as a form of 
corporate welfare. How do we answer that claim?
    Maybe we will start over here with my city council friend 
here, by the way, congratulations. Congressman Ehlers and I 
have not had the strength to remove ourselves from elective 
politics and you have and are clearly on and doing great things 
in your new profession, so thank you for your service more 
seriously as a councilman in California. Why don't we start 
there? Talk about the ATP and how we answer that claim that it 
is corporate welfare.
    Mr. Biechman. Certainly, I don't believe that the building 
and fire research laboratories are near corporate welfare. The 
product, if you will, the technology that is developed or 
researched there is very specific to the safety of the 
firefighting community, building safety, modeling to teach 
firefighters and building engineers how to do things better so 
that occupants and firefighters come out alive. I just don't 
see, frankly, any connection where it would be considered 
corporate welfare. I call this the public research and 
technology for the public good. That is exactly what it is. For 
their investment on behalf of all of us, it saves lives.
    Mr. Udall. That is a good way to respond to it. Mr. 
Jasinski, do you have a response?
    Mr. Jasinski. I am sorry, but we don't participate in that 
program.
    Mr. Udall. All right.
    Dr. Cellucci. I think it is an excellent question. In fact, 
the Committee may be interested that I have given, I think, six 
or seven briefings to Senators Bill Frist, Kay Bailey-
Hutchinson, Jim Talent, Senator George Allen on this subject, 
and it is one of those issues where perception becomes reality. 
When you ask someone, ``Where did you hear this from?'' no one 
can provide facts. And I tend to be like Joe Friday from 
Dragnet to say, ``Let us concentrate. Just the facts.'' If you 
look at the facts related to the NIST-ATP program, I can tell 
you that we are a living, real-world example of a small 
business working with a large business with government and the 
university, commercializing nanotechnology that allows new 
types of technology to go on the marketplace, not in some R&D 
lab hidden off somewhere, but we are actually commercializing 
technology. NIST doesn't give us a handout. NIST is our 
business partner. And again, we rely just as much on the 
constructive criticism of the NIST personnel as much as their 
money. And again, I think you are dealing with perception 
becomes reality, but when you examine all of the facts, like I 
had the opportunity to do, which I would be more than happy to 
provide to this committee, you will see that there are 
numerable examples of small businesses succeeding and putting 
out new products in the marketplace because of the NIST-ATP 
program. It is a very unique, worthwhile program that, in my 
view, should be an example to many government agencies on how 
to get the collaboration of, again, government, small and big 
businesses, and universities.
    Mr. Udall. Ms. Grubbe.
    Ms. Grubbe. Yes, I would like to give a specific example of 
a large company work with ATP. This goes back into the '90s, 
but at that time where we made a proposal for an ATP program 
around high-temperature, superconducting materials, DuPont had 
already been involved in a research program that was three 
years old. And we were debating whether or not to disband that 
research effort, because it had a lot of high technical 
uncertainty. So we went ahead and we applied and were given an 
ATP grant to the tune of $1.5 million. We contributed another 
$800 thousand to that effort, kept the research going, and was 
able to achieve some breakthroughs around technology 
development and it would not have happened without the ATP 
award. So I don't see it necessarily as welfare. I see it, 
again, as was mentioned by my colleagues earlier, a form of 
partnership where it gives assistance and helps one deal with 
some efforts of uncertainty.
    Mr. Udall. Maybe there is some utility in using some of the 
language in the debate here when we reformed the welfare 
system. We talked about work fair. We talked about other 
benefits of that kind of system. Perhaps there are lessons 
there that we could use in the 30 seconds we often have to 
explain why ATP is important.
    Mr. Hatano, do you want the last word?
    Mr. Hatano. We have spent a lot of time discussing the ATP. 
A number--and we actually are neutral with regard to ATP. A 
number of our members believe that ATP is doing solid research 
that otherwise would not be undertaken because of the risky 
nature of those particular projects. We have other members who 
are concerned about the perception that you raised and are 
concerned that that would distract away from our efforts to 
increase research at national labs and universities. And given 
those different views we have within our association, we have 
decided to be neutral. I would say, though, that you have hit 
on the broader point of trying to address skeptics to the whole 
effort we are doing to increase research, not just ATP but 
NIST, and not just NIST in general, but rather NSF and the 
broader picture here. Some of the answers that we give them is 
to point out--put aside the benefits to the overall economy, 
and just look at the Federal Government as somebody who is 
making an investment, just as a company, or anyone else, would 
make an investment.
    Looking at the Federal Government as a purchaser of 
semiconductors and computing power, the Bureau of Economic 
Analysis at the Department of Commerce projects that spending 
on computing power was about $9 billion for governments as a 
whole (Federal, State, and local) in 2003. And if the 
governments have to buy that same level of computing power at 
1994 prices, they would have spent $106 billion. So 
cumulatively, over the last decade, we have--using the Bureau 
of Economic Analysis' numbers, about $363 billion of free 
computing power, that is computing power that they are able to 
purchase because of the fact that we have continued to lower 
prices.
    So you know, the first point we make is the government 
needs to spend the money to do the research to allow us to 
continue on Moore's Law, to allow us to continue to lower costs 
and benefit not just the whole economy, but also the government 
in its role as a purchaser as well.
    We also note that the government gets a big return in terms 
of tax revenues from the economic growth in productivity that 
we are generating. The Congressional Budget Office, as you 
know, says that we have about a $2 trillion budget deficit over 
the next 10-year window. And that is assuming that the 0.7 
percentage point growth--surge in productivity doesn't 
continue. So they are assuming that the recent gains we had in 
productivity doesn't continue into the future. But they do note 
that computers and other information technologies are 
transforming our economy and have caused this surge in 
productivity, arguably, and that is still an open question 
among economists. But that if, in fact, this is going to be 
more permanent because of what semiconductors are doing, you 
have got a huge increase in productivity. I mean, it doesn't 
sound huge, ``0.7 percent,'' but they note that every tenth of 
a percentage point in GDP growth represents $236 billion in 
lowering the federal deficit due to increased tax revenue.
    So you have from those investments that you are making in 
science, you are able to get the productivity increases that 
the government gets a huge return on in terms of tax revenues 
and impact on the federal deficit. I think the answer to people 
who say that the added cost in this time of deficit is a 
difficult thing for us to deal with, I think the answer is that 
we can't afford not to make these sort of investments.
    Mr. Udall. Thank you.
    Thanks again to the panel.
    Chairman Ehlers. The gentleman's time has expired. We will 
do a brief third round, and call it quits.
    First, Mr. Jasinski, it appears that all of the funding for 
biometrics research development goes to the Department of 
Homeland Security and the Department of Justice even though 
NIST is deeply involved in the technical work. Should NIST, in 
your view, have its own in-house program and funding, and if 
so, why and how much?
    Mr. Jasinski. Yes, I strongly would recommend that they 
have their own independent budget. I think that everyone always 
responds to their funding source and that if you have your own 
funding source, you are more independent than if you are 
dependent upon a transfer of funds from another agency the 
extent of that funding, I think, depends upon the goal that you 
would want to achieve in trying to establish that. The doubling 
of their facilities is really just critical in every sense of 
the word, both in manpower and equipment.
    Chairman Ehlers. Thank you. I appreciate that.

    Will the Establishment of Institutions Similar to NIST in Other 
    Countries Contribute to the Relocation of Industry Activities, 
       Particularly Research and Development, to These Countries?

    And Ms. Grubbe, you mentioned about other countries are 
trying to establish institutions of their own that would 
replicate NIST. Would these--the existence of these 
institutions be an incentive for companies to relocate their 
businesses, particularly their R&D in those countries, and if 
so, why? And also how would the existence of these institutions 
stimulate the growth of industry in those foreign countries 
that are already getting our jobs? Any comment?
    Ms. Grubbe. I am aware of some work going on right now in 
the European Union with regards to technology standards 
development. And my impression, and this is primarily through 
touchstones in the aerospace industry, that it is affecting 
decisions around what gets imported, where it gets made, 
because if you are part of the club, so to speak, it is easier 
for you to accomplish things than if you are sitting on the 
outside trying to move in. I am also aware that there is some 
standards development going on in China. I am not an expert in 
this area of, you know, WiFi, for example, but I know that 
China is working on some standards in this area and have seen 
other issues there. So the question becomes where do we want to 
place ourselves as a nation. Do we want to be the lead dog on 
the sled or do we want to be somewhere else in line? And my 
perspective is that our nation's interest is served better and 
our future is served better and our people are served better if 
we are the lead dog on the sled if we can afford it, in all 
cases. And at this point, we are in a spot where we are going 
where we can't afford that. We are showing that we don't want 
to invest there, and that is a mistake, I believe.
    Chairman Ehlers. All right. Thank you very much. That will 
conclude our questioning for today. And I certainly want to 
thank the panelists for attending. I neglected to introduce Dr. 
Smirgem, who is also in the audience. I have introduced Dr. 
Bement earlier, but Dr. Smirgem is helping out in taking over 
one or the other and at NIST as well, and we appreciate your 
attendance as well.
    So it is my pleasure to thank you for everything you have 
contributed. It has been very, very good and very, very helpful 
to us as we try to improve the funding for NIST. If there is no 
objection, the record will remain open for additional 
statements from the Members and for answers to any follow-up 
questions the Subcommittee may ask of the panelists. Without 
objection, so ordered.
    The hearing is now adjourned, but I would like to ask the 
witnesses to join me briefly in the Chairman's lounge: there is 
something I would like to discuss with you. Thank you very 
much.
    [Whereupon, at 11:30 a.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

                   FY 2004 Budget Cut Impacts Summary

    The following contains a summary of how the FY 2004 budget cuts 
will impact NIST. Efforts are being made to minimize staff reductions 
and elimination of programs necessary to fulfill the NIST mission. The 
summary was compiled from reports submitted by the individual NIST OUs 
in January, 2004. The impacts comprise the following:

        <bullet>  missed cost savings to industry and reduced 
        industrial competitiveness

        <bullet>  staff reductions

        <bullet>  missed improvements in homeland security and public 
        safety

        <bullet>  missed benefits to public health

        <bullet>  missed developments and improvements in basic 
        science.

    The specific impacts are listed below.

NIST Laboratories--Gaithersburg

Building and Fire Research Laboratory (BFRL)

    Anticipated Staff Reductions Via Voluntary Separation, Details, 
Reductions in Force, Redirection to Reimbursable Projects

        <bullet>  None planned.

    Missed cost savings for industry

        <bullet>  Reduction in materials science and engineering 
        research will result in:

                  delayed benefits of reduced cement and concrete 
                testing time and consequent reduced construction time. 
                The work also has $0.4M of support by an industrial 
                consortium.

                  delayed benefits of greater inter-operability of 
                building equipment by slowing development of inter-
                operability standards.

    Missed Improvements in Homeland Security, Public Safety, and 
Critical Infrastructure Protection

        <bullet>  Across the board rescission will have homeland 
        security, public safety, and critical infrastructure protection 
        impacts:

                  delayed evaluation of explosive and flammable vapor 
                detectors, a critical first step in development of 
                standardized test procedures

                  delayed development of a standard on electronic pre-
                incident plans for first responders

                  delayed benefits of improved security for building 
                automation and control systems due to reduced efforts 
                in software development.

                  reduction of an already-decimated national fire 
                grants program, the only federal program supporting 
                fundamental fire research programs at U.S. universities

Chemical Science and Technology Laboratory (CSTL)

    Anticipated Staff Reductions Via Voluntary Separation, Details, 
Reductions in Force, Redirection to Reimbursable Projects

        <bullet>  Maximum number of anticipated staff reductions: 9

    CSTL plans to implement the remaining budget reductions through 
decreased other object) spending and reduced laboratory overhead costs.

    Missed Cost Savings by Industry, Reduced Industrial Competitiveness

        <bullet>  Delayed release of the next national reference 
        standard AGA-8 due to research to extend the reference 
        thermodynamic equations-of-state for natural gas being delayed 
        by more than one year. This effort is part of NIST interactions 
        with the American Gas Association in support of its national 
        and international standards for the custody transfer of natural 
        gas. This work directly, which is part of NIST's efforts to 
        support the American Gas Association (AGA) in its develop 
        affects the sales and pricing of natural gas in the market 
        place. In an era of dramatically rising energy prices, the 
        world needs accurate data on which to base commerce.

        <bullet>  Critical data on refrigerant mixtures proposed as 
        possible replacements for existing formulations delayed by one 
        year or more. NIST works with the American Society of Heating, 
        Refrigerating, and Air Conditioning Engineers (ASHRAE) to 
        develop predictive models, based on reference standard 
        thermodynamic equations-of-state. Failure by U.S. industry to 
        produce improved replacements for currently used refrigerant 
        blends will weaken the market position for refrigeration and 
        air conditioning equipment (especially in Asia where the 
        Japanese are our biggest competitors) and make it difficult to 
        compete in sales of the refrigerant mixtures in the world 
        market.

    Missed Improvements in Homeland Security, Public Safety, and 
Critical Infrastructure Protection

        <bullet>  Reduction to, at best, a one-half staff year effort 
        for the development of computational models and supporting 
        engineering data used for engineering design of advanced 
        cryocoolers (light weight, extremely long lived cryogenic 
        refrigeration devices) required for satellite-and space-borne 
        observation and communication systems, severely reducing NIST 
        output and innovation.

    Missed Improvements in Public Health

        <bullet>  Reduction of efforts in classical analytical 
        chemistry from eight to three staff-years. Classical methods 
        for chemical analysis are important because more and more of 
        the instruments that are being manufactured are automated 
        ``black boxes'' with increased uncertainty in the instruments' 
        analytical capabilities. Primary methods like gravimetry, 
        titrimetry, and coulometry are important to maintain a stable 
        comparison basis for our national chemical measurement system 
        across instrument platforms. These budget cuts are expected to 
        adversely affect a broad spectrum of industry and quality of 
        life issues from pollution controls to health care diagnostics. 
        To meet U.S. industry needs we are required to keep pace and 
        even ahead of the industry that we serve in terms of 
        measurement technologies. In the current budget climate, this 
        has come at the expense of ``core competencies'' like classical 
        analytical chemistry.

        <bullet>  The loss of senior staff at NIST's Center for 
        Advanced Research in Biotechnology is causing severe reduction 
        in programs in membrane proteomics, computational biology and 
        bioinformatics. These are areas that have been targeted for 
        significant growth in response to stakeholder interest (FDA, 
        NCI/NIH, and several for profit companies). In addition, the 
        ability of NIST to leverage expertise at the University of 
        Maryland in equivalent areas has all but disappeared. This 
        reduction in our measurements and standards research will make 
        initiatives by NIST to help improve the efficiency and 
        reliability of U.S. industry in the areas of health care, 
        industrial biotechnology, agbiotechnology and biomanufacturing 
        much more difficult.

        <bullet>  NIST lost one of its most productive senior-level 
        scientists. If we are unable to replace this individual because 
        of the reduced funding in the FY04 budget, there will be a 
        severe impact on our ability to fulfill our obligations to the 
        microelectronics industry and other stakeholders. For example, 
        this individual was a critical member of the research team 
        working on the development of SiGe thin film standards for the 
        semiconductor industry (see New York Times article July 30th, 
        2003.) His absence has delayed the release of these materials 
        and without a suitable replacement will result in the need to 
        develop different measurement technologies which will delay the 
        program by at least 12 months.

Electrical and Electronics Engineering Laboratory (EEEL)

    Anticipated Staff Reductions Via Voluntary Separation, Details, 
Reductions in Force, Redirection to Reimbursable Projects

         NOTE: EEEL will not need a RIF to maintain solvency, largely 
        due to breathing room from the 30-person RIF taken in FY 2003. 
        This is based also on the assumption that the target for cuts 
        is $ 2.4M (excluding carryover rescission), a redirection of 
        $300k of external nanotechnology funding to internal efforts, 
        receipt of $296.8k of new nanotechnology funds from the Physics 
        sub-activity line item, and allocation of $400k of new FY04 
        Competence funding. EEEL was also given $270k to cover the 
        carryover rescission based on the $811k of AML equipment money 
        that didn't get through procurement in FY03. EEEL served as the 
        buyer for all of NIST's AML equipment and therefore was not 
        held to be responsible for all of the AML part of its 
        carryover.

    Missed Cost Savings by Industry, Reduced Industrial Competitiveness

        <bullet>  Delayed benefits to industry of basic standards work, 
        including improvements in the SI unit for impedance, by 
        eliminating contractors for making the AML laboratories 
        functional and placing the burden on NIST staff.

        <bullet>  Eliminated benefits of plasma processing metrology to 
        the semiconductor industry by no longer providing the 
        techniques, data, and models needed to optimize and thereby 
        reduce the costs of semiconductor processing techniques.

        <bullet>  Delayed introduction of advanced manufacturing 
        techniques and additional costs to small and medium size 
        electronics manufacturers due to reductions in planned 
        functionality of the Web Portal for the Inter-operability 
        Testbed.

        <bullet>  Delayed introduction of new electronics chip and 
        other products by reduction or elimination of development of 
        semiconductor test methodology to assure quality control.

    Missed Improvements in Homeland Security, Public Safety, and 
Critical Infrastructure Protection

        <bullet>  Delayed remediation of vulnerabilities of control 
        systems used by the electric power, water, gas, and other 
        industries by reducing support for development of secure 
        supervisory control system and data acquisition systems 
        (SCADAs).

Information Technology Laboratory (ITL)

        <bullet>  The cuts will impact support of the Federal 
        Government computer security, have impacts on homeland 
        security. They will increase costs to IT and communications 
        equipment manufacturers, communication networks, Internet 
        service providers, health care providers.

    Anticipated staff reductions via voluntary separation, details, 
reductions in force, redirection to reimbursable projects

        <bullet>  15 (no RIFS are planned; hoping to reduce rolls by 15 
        through VERA, buyouts, details, and redirection to reimbursable 
        projects).

    Missed Improvements in Homeland Security, Public Safety, and 
Critical Infrastructure Protection

        <bullet>  Hindered federal agencies' ability to remediate 
        security vulnerabilities by leaving them without hands-on 
        expert guidance by elimination of NIST's Computer Security 
        Expert Assistance Team (CSEAT) program.

        <bullet>  Delayed remediation of a critical set of core 
        Internet vulnerabilities by reducing efforts to develop new 
        Internet security protocols; next generation first responder 
        systems using ultra-wideband (UWB) techniques by reducing 
        support for protocol development; and vulnerabilities of 
        wireless networks used by small business and home users by 
        reduction of efforts in development of minimum security 
        requirements.

    Missed Cost Savings by Industry, Reduced Industrial Competitiveness

        <bullet>  Increased time delay and costs to commercial 
        laboratories and vendors of product certifications needed for 
        federal procurements by delaying the Federal Information System 
        (FISMA)-mandated development of checklists and guidelines for 
        procurement of commercial off-the-shelf (COTS) security 
        technologies.

        <bullet>  Delayed transition to the new Internet Protocol 
        version 6 (IPv6) by cutting efforts to, understand its 
        implementation and use while the core infrastructure continues 
        to operate using the previous version 4, and to provide advice 
        to the National Telecommunication and Information 
        Administration, Department of Defense, and Department of 
        Homeland Security on the transition from IPv4.

        <bullet>  Increased national annual cost (to IT developers) due 
        to inadequate infrastructure for software testing estimated to 
        range between $22.2M to $59.5 billion and reduction of quality 
        to the IT industry including Microsoft, IBM, Xerox, Accenture, 
        Intel, and other federal agencies (Defense Advanced Projects 
        Research Agency, National Security Agency, Central Intelligence 
        Agency) by eliminating support for development of automatic 
        test generation (ATG) standards and reduction of development of 
        XML conformance tests.

        <bullet>  Increased costs of health care by delaying the 
        development of a framework for exchange of critical health care 
        information in conjunction with the American Telemedicine 
        Association (ATA).

        <bullet>  Delayed introduction of IT systems expected to be in 
        the marketplace in under three years and delay in other NIST 
        physical science projects due to reduction in support for: 
        understanding wired and wireless complex networked systems; 
        analyzing and using enormous data and information stored in 
        global cyber systems; building trust and confidence in 
        integrated dynamic systems; and development of unique 
        mathematical and theoretical statistical models to support NIST 
        physical science projects.

    Elimination of New Voting Standards Development

        <bullet>  Termination of activities under the Help America Vote 
        Act--intended to assure voters' confidence in election systems 
        and singled out as critical at a recent conference on voting 
        standards and technologies needs.

Manufacturing Engineering Laboratory (MEL)

    The cuts will increase costs and development times for 
manufacturers including semiconductor, automotive, and aerospace 
industries, and cause delays in the remediation of vulnerabilities in 
critical infrastructure industries such as electric power, water, gas, 
chemical, manufacturing, and many others.

    Anticipated Staff Reductions Via Voluntary Separation, Details, 
Reductions in Force, Redirection to Reimbursable Projects

        <bullet>  None planned.

    Missed Cost Savings by Industry, Reduced Industrial Competitiveness

        <bullet>  Delayed development and reduction in quality of next-
        generation microelectronics standards having sub-50 nanometer 
        features by delay in development in scanning electron 
        microscope (SEM) measurements and modeling.

        <bullet>  Delayed development of needed length and force 
        standards for the developing nanotechnology industry.

        <bullet>  Delayed development of emerging technologies due to 
        reduction of support in exploratory projects that develop NIST 
        competence and agility in support of the emerging needs of 
        industry.

        <bullet>  Delayed development of improved supply chain inter-
        operability and added costs to manufacturers by delaying 
        integration supply chain integration and measurement standards 
        development resulting from a $500k cut in the Systems 
        Integration for Manufacturing Applications program.

        <bullet>  Increased costs and difficulties to U.S. 
        manufacturers globally by reducing U.S. representation in 
        international standardization and conformance testing efforts 
        in the areas of electronic commerce B2B, manufacturing and 
        metrology inter-operability, including product data, process 
        data and simulation technology.

        <bullet>  Increased costs and difficulties to U.S. 
        manufacturers globally by reducing U.S. representation in 
        international standardization and conformance testing efforts 
        in the areas of electronic commerce B2B, manufacturing and 
        metrology inter-operability, including product data, process 
        data and simulation technology.

        <bullet>  Additional costs to manufacturers conducting business 
        in global markets by reducing MEL participation in 
        international standards to ensure the fair representation of 
        U.S. interests in the technical areas of mass metrology, force 
        metrology, acoustics metrology (including hearing aid 
        standards), mechanical vibration and shock, machine tool 
        performance evaluation methods, and sensor networking and 
        integration.

    Missed Improvements in Homeland Security, Public Safety, and 
Critical Infrastructure Protection

        <bullet>  Delayed benefits of greatly increased security for 
        control systems used by the electric power, water, oil and gas, 
        chemical, manufacturing, and many other process control 
        industries by delaying the development of IT security 
        requirements for industrial control systems under the Critical 
        Infrastructure Protection program.

Materials Science and Engineering Laboratory (MSEL)

    Anticipated Staff Reductions Via Voluntary Separation, Details, 
Reductions in Force, Redirection to Reimbursable Projects

        <bullet>  Maximum number of anticipated staff reductions: 10-15

    Missed Cost Savings by Industry, Reduced Industrial Competitiveness

        <bullet>  Delayed development of technologies in fuel cells, 
        thermal barrier coatings for jet engines, biomaterials for 
        tissue engineering and implants and nanotubes for electronics 
        by eliminating NIST contribution to beamline operating expenses 
        and contract staff support for the UNICAT team (comprising the 
        University of Illinois, Oak Ridge National Laboratory, and UOP 
        Corporation) at Argonne National Laboratory, which may result 
        in breakup of UNICAT, which has a unique x-ray facility at 
        Argonne.

        <bullet>  Loss of economic advantage to U.S. manufacturers via 
        further reduction in the time-to-market for new materials by 
        eliminating support to the NIST Combinatorial Methods Center 
        that would extend mass spectrometer and scan probe microscopy 
        capabilities.

        <bullet>  Delayed development of next-generation 
        microelectronic devices by reducing support for the 
        collaboration with International Sematech on Low-k Nanoporous 
        Thin Film Dielectrics.

        <bullet>  Delayed development of new nanocomposite materials by 
        cutting work with a small instrument manufacturer for online 
        nanocomposite measurements.

        <bullet>  Delayed development of solid oxide fuel cells by 
        delaying NIST introduction of new x-ray methods.

        <bullet>  Increased time-to-market time for high-efficiency 
        solid-state lighting, which is projected to result in a $50B 
        annual energy savings, by eliminating support for the EEEL 
        efforts in wide bandgap optoelectronic materials.

        <bullet>  Reduced service to customers as a result of reduced 
        support for operations in the NIST Center for Neutron Research:

                  Delayed development of critical new instrumentation 
                and possible default on inter-agency partnerships.

                  Operation of two existing instruments in 2004.

                  Indefinite postponement of the completion of 
                beamlines needed for continuation of high priority 
                Physics and Chemical Science and Technology Laboratory 
                programs, including a competence project for imaging of 
                fuel cells.

    Missed Improvements in Public Health

        <bullet>  Delayed introduction of lead-free solders by delaying 
        the delivery by NIST of measurements to qualify lead-free 
        solders for high-reliability commercial and military 
        electronics.

    Missed Improvements in Homeland Security, Public Safety, and 
Critical Infrastructure Protection

        <bullet>  Delayed developments needed by the Department of 
        Defense, including armor applications, advanced tungsten 
        projectiles to replace depleted uranium, and amorphous metals 
        for structural applications by eliminating NIST funding of the 
        Powder Processing for Defense Applications project, which is 
        now co-funded by the Army.

Physics Laboratory

    Anticipated Staff Reductions Via Voluntary Separation, Details, 
Reductions in Force, Redirection to Reimbursable Projects

        <bullet>  Reduction in Force of two staff and positions 
        eliminated for 11 contractors and guest scientists. Reductions 
        are temporarily relieved by expectation of increased other 
        agency funding, primarily from DHS.

    Missed Cost Savings by Industry, Reduced Industrial Competitiveness

        <bullet>  Delayed or hindered developments in a broad range of 
        areas including high performance computing, radiation therapy 
        and diagnostics, and nanoscale and optical science and 
        engineering, by reducing contracts and collaborations with 
        technical experts, industrial consortia, and standards-writing 
        organizations and committees.

        <bullet>  Reduced responsivity of the Office of Electronic 
        Commerce for Scientific and Engineering Data (ECSED) to the 
        growing needs of industry and the technical community for 
        critically evaluated reference data delivered to the desktop 
        and the work bench. About 500,000 webpages are downloaded 
        monthly by industry, academia, and other federal agencies from 
        the ECSED website.

        <bullet>  Delayed developments by and reduced quality for the 
        semiconductor industry by reduction in NIST support for plasma 
        diagnostics.

        <bullet>  Delayed development of many new commercial devices, 
        such as the very high information density wavelength division 
        multiplexing (WDM) devices that will increase capacity of 
        existing fiber communication networks, by delaying the 
        development of frequency combs for higher accuracy time and 
        frequency standards.

        <bullet>  Delayed development of and decreased quality of new 
        semiconductor devices by reducing the x-ray metrology project, 
        which supports the semiconductor industry.

        <bullet>  Reductions in developments in basic neutron science 
        due to reduction in support of the Cold Neutron Research 
        Facility research stations.

    Missed Basic Science Developments and Improvements

        <bullet>  Delayed advances in basic science and ability to 
        discover new phenomena by reduction of grants to universities 
        for measurement research under the Precision Measurement Grant 
        program.

    Missed Improvements in Homeland Security, Public Safety, and 
Critical Infrastructure Protection

        <bullet>  Delayed developments of new optical technologies, 
        such as for Homeland Security, microscopy, remote sensing, and 
        industrial applications by reducing support for development of 
        national standards of optical radiation and associated 
        measurement services.

Technology Services (TS)

    Anticipated Staff Reductions Via Voluntary Separation, Details, 
Reductions in Force, Redirection to Reimbursable Projects

        <bullet>  Reduction in Force (RIF) of 10 and elimination of 
        three other positions.

    Missed Cost Savings by Industry, Reduced Industrial Competitiveness

        <bullet>  Increased fees to private sector users of the 
        National Voluntary Laboratory Accreditation Program (NVLAP), by 
        recovering costs for international NVLAP activities now covered 
        by NIST.

        <bullet>  Delayed remediation of unnecessary duplication in 
        conformance assessment programs among federal agencies as 
        provided for by the National Technology Transfer and 
        Advancement Act of 1995 by reassigning NIST staff to perform 
        work previously planned to be done by contractors.

        <bullet>  Reduced fair representation of U.S. manufacturers' 
        interests resulting in the increased likelihood of de facto 
        trade barriers being raised by elimination of $515k in grants 
        to the American National Standards Institute (ANSI) to 
        strengthen U.S. representation on international standards 
        development committees.

Office of the Chief Information Officer (OCIO)

    Anticipated Staff Reductions Via Voluntary Separation, Details, 
Reductions in Force, Redirection to Reimbursable Projects

        <bullet>  None planned

    Missed Basic Science Developments and Improvements; Missed Cost 
Savings by Industry, Reduced Industrial Competitiveness; Missed 
Improvements in Homeland Security, Public Safety, and Critical 
Infrastructure Protection

        <bullet>  Hindered work of NIST Boulder scientists by deferring 
        procurement of a replacement scientific computing server.

        <bullet>  Hindered NIST work by reducing the number of 
        scientific computing packages procured and maintained by OCIO.

NIST Laboratories--Boulder

Electrical and Electronics Engineering Laboratory (EEEL)

    Missed Cost Savings by Industry, Reduced Industrial Competitiveness

        <bullet>  Delayed deployment of new commercial very high 
        density wavelength division multiplexing (WDM) devices that 
        will increase capacity of existing fiber communication networks 
        as the industry emerges from its slump by delaying the 
        development of high accuracy frequency combs for advanced 
        wavelength metrology.

        <bullet>  Delayed in advancements and developments of emerging 
        technologies including wireless, magnetic storage, high-speed 
        digital, IT and electro-optics devices due to delay in delivery 
        of new metrology tools by the electro-optics, nonlinear and 
        nano-magnetics programs.

    Missed Improvements in Homeland Security, Public Safety, and 
Critical Infrastructure Protection

        <bullet>  Delayed introduction of commercial chemical and 
        biological sensors, including those to be used for Homeland 
        Security threat detection, by delaying new blue and ultraviolet 
        laser wavelength and detector standards.

Materials Science and Engineering Laboratory (MSEL)

    Missed Improvements in Public Health

        <bullet>  Delayed medical research developments for the 
        Colorado Health Sciences Center, the National Jewish Medical 
        Research Center, and the Children's Hospital of Denver by 
        cutting the NIST biomaterials reliability program in half, 
        greatly reducing NIST ability to provide measurements of single 
        cell properties.

NIST Extramural Programs

Baldrige National Quality Program (BNQP)

    Anticipated Staff Reductions Via Voluntary Separation, Details, 
Reductions in Force, Redirection to Reimbursable Projects

        <bullet>  None planned.

    Missed Cost Savings by Industry, Reduced Industrial Competitiveness

        <bullet>  Reductions in educational materials and outreach 
        about the Baldrige award criteria and program that helps guide 
        companies, schools and health care institutions to improve 
        management excellence--at a time when quality and budget crises 
        and manufacturing challenges require greater efficiency and 
        strategic thinking.

Manufacturing Extension Partnership(MEP)

    Anticipated Staff Reductions Via Voluntary Separation, Details, 
Reductions in Force, Redirection to Reimbursable Projects

        <bullet>  Maximum number of anticipated staff reductions: 24 
        from a total staff of 49.

    Missed Cost Savings by Industry, Reduced Industrial Competitiveness

        <bullet>  Reduced support for small manufacturers because of a 
        significant reduction in the total number of Centers as a 
        result of recompetition of all existing MEP Centers within a 
        budget of $20.0M.

Advanced Technology Program (ATP)

    Anticipated Staff Reductions Via Voluntary Separation, Details, 
Reductions in Force, Redirection to Reimbursable Projects

        <bullet>  None planned.

    Missed Cost Savings by Industry, Reduced Industrial 
Competitiveness; Missed Improvements in Homeland Security, Public 
Safety

        <bullet>  Reduction in developments in measurements, standards, 
        homeland security, and public safety through reduction in ATP 
        intramural funding of projects in the NIST laboratories.

               Statement by The American Chemical Society
                    Fiscal Year 2005 Appropriations
                    By The American Chemical Society

    The American Chemical Society urged the Subcommittee on Commerce, 
Justice, State, and Judiciary to increase investment in the National 
Institute of Standards and Technology. ACS supports the President's FY 
2005 request to provide $417 million for the NIST Laboratories. This 25 
percent increase is needed to address problematic cuts last year and 
shortfalls in previous years. ACS does not support the proposed 
termination of the Advanced Technology Program and urges Congress and 
the Administration to work toward a bipartisan solution to fund ATP at 
the FY 2004 level of $170.5 million.
    ACS supports increased investments in NIST to advance the research, 
measurement methods, and standards that are vital to American industry 
and to the Nation's economic competitiveness and security. Increased 
funding is necessary to meet ongoing private sector needs for NIST 
measurements and standards as well as growing needs in homeland 
security, advanced manufacturing, and nanotechnology.

NIST Laboratories

    NIST laboratories serve as the technological nerve center for 
countless products and services across industries. By advancing 
research, extremely accurate measurement technology, and consensus-
based technical standards, NIST enables universal quality control 
technologies that support industrial productivity and efficiency 
improvements and faster product development. In addition to fostering 
economic growth, NIST plays a critical role in advancing public health 
and safety, environmental progress, and the Nation's security. NIST's 
calibration and related measurement methods are critical to the 
national adoption of incredibly precise measurements in areas such as 
emission control, fuel composition, smoke detector sensitivity, 
electricity meter readings, the energy efficiency of appliances, and 
the velocity of light traveling through optical fibers. Without NIST's 
consensus-based measurement standards and the research and facilities 
that ensure their cutting-edge quality, companies simply would be less 
innovative, less efficient, and less competitive in world markets.
    ACS is concerned that recent cuts in standards-related programs 
will hamper NIST's ability to promote international acceptance of U.S. 
standards and facilitate global trade. Additional funding is also 
needed to support NIST's increased role in nanotechnology, information 
technology, and homeland security--including measurement technologies 
for detecting and countering terrorist threats. ACS applauds NIST's 
Chemical Science and Technology Laboratory for its high-quality 
research and technology support for the chemical and other industries. 
The work performed at NIST laboratories requires cutting-edge 
laboratory conditions, and ACS supports increased investment in 
facilities to address problems associated with air cleanliness, 
temperature and humidity control. Many independent studies show that 
every dollar invested in NIST measurement and standards programs 
returns at least three dollars in national economic benefits.

Advanced Technology Program

    ACS also continues to support NIST's Advanced Technology Program 
(ATP), which strengthens the ability of small and large companies 
across industrial sectors to pursue and accelerate high-risk research 
and technologies that would not likely be funded absent government 
support. Small start-up firms, for example, have relied on ATP funding 
to achieve technological advances that would not otherwise be possible 
given scarce venture capital funding in many long-term research areas. 
The ATP program provides an incentive for firms to perform research 
that has greater risks than typical industrial R&D and holds great 
promise for broad economic impact. ACS opposes the Administration's 
proposed termination of ATP, which will impact negatively on economic 
growth. We urge Congress and the Administration to work toward a 
bipartisan solution that retains the goals and sustains funding for 
this program.

             Statement of The American Society for Quality

    The American Society for Quality (ASQ) wishes to commend the 
Science Committee for holding hearings on funding for the National 
Institute of Standards and Technology, an agency that plays an 
important role in the American quality movement.
    ASQ has worked closely with NIST since the mid-1980s. Our 
organizations came together due to our mutual interest in the need at 
that time to restore American competitiveness through product and 
service quality. The result of that interest and need was the 
establishment of the Malcolm Baldrige National Quality Award, which is 
administered by NIST's Baldrige National Quality Program office. ASQ 
has also maintained a close working relationship with NIST over the 
years on standards-related matters, including most recently standards 
related to homeland security. As the Nation's leading quality 
improvement organization, ASQ has been closely involved with the 
Baldrige Award since its inception. The expertise of ASQ members was 
instrumental in formation and refinement of the highly acclaimed 
Baldrige Award Criteria. Furthermore, ASQ represents the primary 
network of quality professionals in the United States, who form the 
core of the extensive volunteer activity supporting the Baldrige 
process throughout the country.
    The services provided by NIST in managing the Baldrige Award 
program are not available elsewhere--due to the unique nature of the 
Baldrige process and the roles that NIST plays in this unparalleled 
public-private collaboration.
    NIST provides a safe forum for firms to share information about 
their quality models and processes, which normally would not be shared 
because of its proprietary nature. NIST has an impeccable reputation 
for high standards and objectivity, an essential condition for entities 
to reveal sensitive information about their programs. NIST brings 
national prestige to the quality improvement initiative.
    NIST has proven to be very effective in leveraging the efforts of 
the private and voluntary sector organizations that provide extensive 
monetary, professional, and in-kind services and support for the 
Baldrige Award activities--organizations such as ASQ and the private-
sector Foundation for the Malcolm Baldrige National Quality Award.
    Baldrige has provided a rigorous, nonpolitical examination process 
for its applicants that has proven effective in understanding and 
recognizing those organizations that have achieved superior results 
because of quality management--and in sharing those results across all 
sectors. The Baldrige process is perceived as fair, and without its own 
agenda. In addition, the business, education, and health care 
communities have expressed the need for a NIST-managed Baldrige program 
that is independent of agencies with regulatory oversight.
    None of these functions can be undertaken by the private sector 
alone or by another government agency; they are truly unique to NIST.
    The Baldrige Award program, a key element in defining quality 
practices in all sectors of the economy, is affected by the reduction 
in NIST's funding in two primary ways.
    Because of budget considerations, two positions (out of 36) in the 
Baldrige National Quality Program that have become vacant through staff 
departures will not be filled.
    A second major impact is that NIST will delay its efforts in 
developing e-processes. These include distance and web-based learning 
modules for Baldrige Examiners, electronic submission of Baldrige 
applications, and secure web-based application review by Examiners. 
These e-processes represent potential cost savings in the 
administration of the award program and potential cycle-time reductions 
for applicant feedback. The greatest desire of Baldrige applicant 
customers is more rapid feedback.
    ASQ supports an increase in funding for the Baldrige Award program 
of $1.5 million for Fiscal Year 2005 that would fund activities related 
to the expansion of the Baldrige Award to cover the not-for-profit 
sector. This move will allow the Malcolm Baldrige National Quality 
Award to reach its full potential as a force for positive change within 
our nation's economy by permitting not-for-profit organizations, 
representing a significant portion of the U.S. economy, to apply for 
the Award and benefit from its assessment and feedback processes.
    In addition to ASQ, the independent Foundation for the Malcolm 
Baldrige National Quality Award, the Baldrige Board of Overseers, the 
Secretary of Commerce, and the President have all endorsed the 
expansion, and the Foundation has indicated its willingness to 
determine additional fundraising that may be necessary to support a new 
not-for-profit category.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Statement by the Institute of Electrical and Electronics Engineers, 
                Inc.-United States of America (IEEE-USA)

    The IEEE-USA is pleased to express its support for the National 
Institute of Standards and Technology, whose laboratory and extramural 
programs play a critical role in providing essential measurement and 
other enabling technologies that underpin the competitiveness of U.S. 
industry. With respect to the FY 2005 NIST budget request, IEEE-USA 
appreciates and strongly supports the significant increase in funding 
for NIST's vital laboratory programs but are concerned that the 
increase will not adequately compensate for the major decrease in 
funding in the previous fiscal year. We believe that strong 
reassurances of stability of funding are necessary. Furthermore, we 
oppose the elimination of the Advanced Technology Program (ATP) and the 
corresponding reductions to the Manufacturing Extension Partnership 
(MEP) program.
    The ATP provides critical resources for high risk, long-term 
research and development and relies on cost sharing, peer review and 
competition to ensure that only deserving proposals are funded. It is a 
model for collaboration between the Federal Government and the private 
sector in funding advanced technologies. Over the past decade, the ATP 
has awarded 709 projects. Four out of five ATP projects result in new 
products or processes introduced into the marketplace, and half of all 
ATP projects result in a patent application. One prosthesis technology 
project alone is projected to deliver $15 billion in the economy. This 
is exactly the type of payoff Americans expect for their tax dollars.
    The MEP has a proven track record of promoting innovation and 
economic growth. The MEP has helped over 150,000 small and mid-size 
businesses to grow, modernize, and improve productivity. The MEP 
program is instrumental to re-vitalizing the manufacturing industry and 
to creating and keeping jobs in the U.S. Given the significant benefit 
it provides to American innovation, economic prosperity and job 
creation, cutting the MEP at this time would be a serious mistake.
    We understand the difficult decisions that Congress must make in a 
very constrained budget environment. However, we believe that 
eliminating the ATP and reducing the MEP budget is short-sighted and 
would be detrimental to the United States' international 
competitiveness. We strongly urge you to support funding the ATP at the 
level of $145 million and the MEP at $106 million, as provided in the 
FY 2004 budget, while sustaining the requested budget for the NIST 
laboratory program.
    IEEE-USA is an organizational unit of the IEEE, which was created 
in 1973 to advance the public good and promote the careers and public 
policy interests of the more than 225,000 technology professionals who 
are U.S. members of the IEEE. Our members are employed in industry, 
academia, and government.
    We are submitting this statement for the information of the 
Committee and ask that it be incorporated into the hearing record.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
